Quarterly Progress and
Oversight Report on the Civilian
Assistance Program in Pakistan
As of December 31, 2010
Foreword
This is the fourth quarterly progress and oversight report on the U.S. Government’s civilian assistance
program in Pakistan. The U.S. Embassy in Pakistan requested quarterly reporting to inform stakeholders
about progress achieved to date, problems encountered during program implementation, and actions
taken to address them.

This report covers October 1 through December 31, 2010. For fiscal year (FY) 2010, Congress
appropriated $1.514 billion authorized by the Enhanced Partnership with Pakistan Act of 2009, along
with other assistance funds, to support the civilian assistance strategy in Pakistan. The U.S. Embassy
reported that $3.931 billion in FY 2009, 2010, and 2011 civilian assistance funds had been obligated as of
December 31, 2010.

The information on program status in this report is based on information provided by the departments
and agencies working in Pakistan—the U.S. Agency for International Development (USAID), the
Department of State, the Department of Defense, the Department of Agriculture, and the Department
of Commerce. The program oversight results are taken from audits, reviews, and investigations
performed by the Offices of Inspector General of the U.S. Agency for International Development, the
Department of State, and the Department of Defense, as well as by the U.S. Government Accountability
Office.




___________/s/ _________________________
The Honorable Donald A. Gambatesa
Inspector General
U.S. Agency for International Development



___________/s/ _________________________
The Honorable Harold W. Geisel
Deputy Inspector General
Department of State



___________/s/ _________________________
The Honorable Gordon S. Heddell
Inspector General
Department of Defense
Contents
Executive Summary ........................................................................................................................................................... 1

Background.......................................................................................................................................................................... 3

Program Status ................................................................................................................................................................... 6

    Flood Response ............................................................................................................................................................. 9

    High-Impact, High-Visibility Infrastructure............................................................................................................11

    Focused Humanitarian and Social Services: Immediate Postcrisis and Humanitarian Assistance...........15

    Focused Humanitarian and Social Services: Increased Access to and Quality of Education and
     Health Services .........................................................................................................................................................18

    Government Capacity Development: Improved National and Local Governance .....................................22

    Government Capacity Development: Improved Security and Legal Institutions .......................................25

    Assistance to Pakistani Institutions .........................................................................................................................27

Staffing ................................................................................................................................................................................32

Risks and Mitigation Strategies .....................................................................................................................................33

Oversight Status...............................................................................................................................................................37

    USAID Office of Inspector General........................................................................................................................37

    Department of State Office of Inspector General ..............................................................................................40

    Department of Defense Office of Inspector General ........................................................................................42

    Government Accountability Office.........................................................................................................................42

    Completed Oversight Reports, as of December 31, 2010 ...............................................................................44

Appendix—–Abbreviations ...........................................................................................................................................46
Executive Summary
In December 2009, the U.S. Department of State developed a strategy for providing civilian assistance to
Pakistan. However, over the past year of reporting on the civilian assistance program designed to carry
out the strategy, progress has been difficult to measure. The U.S. Agency for International Development
(USAID), the largest contributor to the assistance program, has not committed to a set of performance
indicators to measure the success of its programs as traditionally required for proper project
management. Moreover, the U.S. Embassy Islamabad has not identified a core set of development
indicators by which to measure the success of the U.S. Government development strategy—including
the efforts of USAID, the Department of State (DOS), and the Department of Defense (DOD).

For FY 2010, Congress appropriated $1.514 billion 1 for the civilian assistance strategy. The U.S.
Embassy reported that as of December 31, 2010, $3.931 billion in FY 2009, 2010, and 2011 funds had
been obligated. These funds support high-impact, high-visibility infrastructure; focused humanitarian and
social services; and government capacity development. The funds also support shifting requirements and
needs as determined by the U.S. Government in consultation with the Government of Pakistan.

Pakistan’s unprecedented summer floods, which affected over 20 million people, constituted a major
shift in funding requirements and needs. The U.S. Government response to the floods was rapid and
significant and closely coordinated with federal and local authorities in Pakistan. As echoed in bilateral
and multilateral meetings held during the reporting period, the United States remains committed to
supporting the Pakistani people from relief to recovery and reconstruction. To demonstrate its
commitment, the United States recently pledged an additional $500 million in assistance funds.

Amid recovery and early reconstruction efforts, USAID reported an increase in awards to Pakistani
institutions. As of December 31, 2010, USAID has made 76 awards totaling $1.361 billion to
governmental and nongovernmental Pakistani institutions. To overcome flood-related risks posed to
the civilian assistance strategy, such as a loss of momentum in planning and implementing programs and
potential damage to relationships established with Pakistani stakeholders, USAID has moved as
expeditiously as possible reprioritizing activities and reallocating funds and has maintained contact with
key counterparts to sustain important political relationships while programs remain on hold. To
improve monitoring and oversight of its programs, USAID conducted preaward assessments of local
implementing partners and expanded its regional offices. However, ongoing security threats impede
effective implementation and monitoring of assistance programs.

Oversight entities have also taken steps to ensure that U.S. Government funds are protected against
waste and theft. The DOS Office of Inspector General (OIG) established a field office in Islamabad,
while USAID OIG expanded its field office in Pakistan. USAID OIG has vetted independent Pakistani
accounting firms that will conduct financial audits of funds provided to Pakistani nongovernmental
                                                            
1
 This amount was authorized under the Enhanced Partnership with Pakistan Act of 2009 (Public Law 111-73) and
does not include other assistance funds provided by Congress for Pakistan.

                                                                                                          1
organizations (NGOs), provided financial audit training and fraud awareness briefings, and collaborated
with USAID/Pakistan to establish a fraud hotline.

During the period covered by this report, October 1 through December 31, 2010, USAID OIG
completed four audits, including performance audits of two livelihood development programs in the
Federally Administered Tribal Areas (FATA). The goal of both programs is social and economic
stabilization to counter the growing influence of extremist and terrorist groups. The audits found the
programs had made little progress in achieving the goal largely because of the hostile environment—the
chief of party for one implementing partner was assassinated—but also because of a lack of baseline data
and inadequate oversight, which resulted in questioned costs of $767,841. Security issues and
allegations of wrongdoing overshadowed and impeded program progress. USAID/Pakistan terminated
its agreement with one implementing partner, the U.S.-based Academy for Educational Development
(AED), after an ongoing OIG investigation revealed fraud stemming from false statements and claims,
failure to perform in accordance with the terms of the agreement, and violation of statutory or
regulatory provisions contained in the agreement.

The OIG investigation resulted in additional benefits for the United States. After OIG investigators
substantiated corporate misconduct, USAID suspended AED from receiving new U.S. Government
awards pending completion of the investigation. The AED board of directors accepted the
organization’s responsibility for the mismanagement of the USAID-funded program in Pakistan and
required AED’s president and chief executive officer and four other senior executives to leave the
organization.




                                                                                                      2
Background
In FY 2010, Congress appropriated $1.514 billion 2 to support the State Department’s December 2009
strategy for providing civilian assistance to Pakistan.

This reporting period was marked by a high level of activity—the presentation of findings about flood
damage, meetings of international delegations and working groups, and the hosting of the Pakistan
Development Forum—as well as by the WikiLeaks incident and the loss of the U.S. Special
Representative for Afghanistan and Pakistan.

During the Friends of Democratic Pakistan meeting held in Brussels in mid-October, the World Bank
and Asian Development Bank presented their findings from a joint damage and needs assessment
quantifying Pakistan’s needs and requirements following the summer floods. 3 The assessment sought to
provide the strategic underpinnings for medium- to long-term reconstruction and recovery planning,
prioritization, and programming. The assessment found that the agricultural sector was the hardest hit,
accounting for 50 percent of the overall cost of the damage. Damage from the floods was estimated at
$10 billion. 4

Later that month, U.S. Secretary of State Clinton welcomed Pakistan’s Foreign Minister Qureshi for the
third ministerial-level Strategic Dialogue, held October 20–22, 2010, in Washington. The two officials
reaffirmed their countries’ shared values, mutual respect, and mutual interests. This Strategic Dialogue
included meetings of 10 of the 13 sectoral working groups, including those on agriculture, water, energy,
health, and women’s empowerment. The working groups compiled plans and benchmarks and discussed
next steps in implementing joint projects in each sector.

On the heels of the meeting in Brussels and the bilateral Strategic Dialogue, the Government of Pakistan
hosted over 30 countries and organizations, including a delegation from the United States, at the
Pakistan Development Forum in Islamabad on November 14–15, 2010. Senior officials from all
concerned Pakistani ministries participated, along with representatives of business, academia, and civil
society. The Pakistan Development Forum provided an opportunity for Pakistan to present its
economic reform and stabilization plans; announce progress on tax reforms, energy reforms, and fiscal
consolidation; and review the response to Pakistan’s devastating floods.

At the Pakistan Development Forum, the U.S. Special Representative for Afghanistan and Pakistan,
Ambassador Richard Holbrooke, announced that the United States would reallocate assistance funds to
Pakistan to target flood recovery and reconstruction. In addition to the $500 million already provided
by the United States for flood relief, Ambassador Holbrooke said the United States would commit

                                                            
2
 This amount was authorized under the Enhanced Partnership with Pakistan Act of 2009 (Public Law 111-73) and
does not include other assistance funds provided by Congress for Pakistan.
3
    Friends of Democratic Pakistan, joint communiqué, Brussels, October 15, 2010.
4
    Pakistan Floods 2010: Preliminary Damage and Needs Assessment, Islamabad, November 2010.

                                                                                                          3
another $500 million—equal to one-third of the civilian assistance budget for the year—to help flood
victims recover and rebuild. The provision of the additional funding was designed to demonstrate the
U.S. commitment to expanding its partnership with Pakistan. The U.S. Administration has been working
closely with Congress and Pakistan’s leadership to determine how best to deploy these funds so that
they further Pakistani priorities. Potential uses include a Citizens Damage Compensation Fund,
agricultural initiatives in hard-hit regions, small-scale infrastructure projects, the rebuilding of schools,
and other projects to be determined in close consultation with the Pakistani Government. 5

Despite high-level engagement, the U.S. civilian assistance program experienced setbacks. In late
November, the WikiLeaks incident occurred, in which classified documents containing U.S. diplomats’
assessments of policies, negotiations, and leaders around the world, as well as records of private
conversations with people inside and outside government, were released to the media by the owners of
the WikiLeaks Web site. In light of the leaks, which led the Pakistani media to question U.S. intentions
in the country, the new U.S. Ambassador emphasized his commitment to strengthening the U.S.
partnership with Pakistan to meet shared challenges, noting that “Pakistan is an important strategic
partner of the United States.” 6

The leaking of information was followed by the death of Ambassador Richard Holbrooke, the U.S.
Special Representative for Afghanistan and Pakistan, on December 13, 2010. In a statement afterward,
President Obama attributed progress made in Afghanistan and Pakistan to Ambassador Holbrooke’s
“relentless focus on America’s national interest, and pursuit of peace and security.” 7

Days after Ambassador Holbrooke’s death, the Obama Administration presented its annual review of
U.S. strategy in Afghanistan and Pakistan. 8 The review emphasized the strategic importance of Pakistan
in defeating al-Qa’ida and preventing its return to the region. The review also noted that progress in
the U.S-Pakistan relationship over the past year was substantial, albeit uneven. The Strategic Dialogue
meetings helped improve mutual trust, prompted attention to important reforms critical to long-term
stability, and addressed development objectives important to the people of Pakistan.

The strategy the United States has followed for civilian assistance in Pakistan since December 2009 9 has
three objectives:

•      Improve the Government of Pakistan’s capacity to address the country’s most critical infrastructure
       needs.

•      Help the Pakistani Government address basic needs and provide improved economic opportunities
       in areas most vulnerable to extremism.
                                                            
5
 U.S. Embassy Islamabad, “U.S. Accelerates $500 Million of Kerry-Lugar-Berman Funds for Post-Flood Recovery
and Reconstruction,” press release, November 15, 2010.
6
    U.S. Embassy Islamabad, “WikiLeaks – the U.S.-Pakistan Partnership,” press release, November 29, 2010.
7
    “Obama on Passing of Ambassador Richard Holbrooke,” December 13, 2010.
8
    The White House, “Overview of the Afghanistan and Pakistan Annual Review,” December 2010.
9
  The Department of State developed a strategy (Pakistan Assistance Strategy Report, December 14, 2009), in
connection with the Enhanced Partnership with Pakistan Act of 2009 (Public Law 111-73), which seeks to align U.S.
assistance more closely with Pakistan’s development and investment priorities.

                                                                                                               4
•   Strengthen Pakistan’s capacity to pursue economic and political reforms that reinforce stability.

In furtherance of these objectives, the strategy features assistance programming in five areas: (1) high-
impact, high-visibility infrastructure, (2) focused humanitarian and social services—immediate postcrisis
and humanitarian assistance, (3) focused humanitarian and social services—increased access to and
quality of education and health services, (4) government capacity development—improved national and
local governance, and (5) government capacity development—improved security and legal institutions.




                                                                                                        5
Program Status
The U.S. departments and agencies delivering development assistance in Pakistan are designing and
implementing programs to accomplish the objectives of the U.S. Government’s civilian assistance
strategy. The following sections provide an overview of status of programs in the areas of flood
response: high-impact, high-visibility infrastructure; postcrisis and humanitarian assistance; education and
health services; national and local governance; and security and legal institutions.

The U.S. Embassy reported that as of December 31, 2010, $3.931 billion in FY 2009, 2010, and 2011
funds had been obligated to support the civilian assistance strategy (Table 1). Of this amount,
$109 million in FY 2011 funds were obligated, most of which supports flood response efforts.
                    Table 1. Program Financial Status as of December 31, 2010
                                          ($ Millions)

                                                                    Obligations
                                                            FY      FY       FY                   Pipeline
              Program                     Manager
                                                           2009    2010     2011      Total       Amount*

 Flood Response: Emergency
 Relief and Early Recovery
 World Food Programme                  USAID                –      144.0      95.8      239.8        20.0
 Humanitarian programs – Office of
 Transition Initiatives, Pakistan’s
 National Disaster Management
 Authority, Pakistan Poverty           USAID                –       60.0      –          60.0        40.0
 Alleviation Fund (PPAF), Rural
 Support Programmes Network
 (RSPN)
 Humanitarian programs – Office of
 Foreign Disaster Assistance           USAID                –      198.3      –         198.3        66.9
 (OFDA)
 Narcotics Affairs Section (NAS),                                 In-kind
                                       NAS                  –                 –         –            –
 U.S. Embassy                                                     support
                                       Political Affairs
 Pakistan Internally Displaced
                                       Section (POL),       –       49.3      –          49.3        –
 Persons
                                       U.S. Embassy
 Overseas Humanitarian, Disaster,
                                       DOD                  –      113.0      –         113.0            5.0
 and Civic Aid
 Subtotals                                                        564.6      95.8      660.4        131.9
 High-Impact, High-Visibility
 Infrastructure
 International Trade Administration,
                                       DOC                  0.8      3.8      –             4.6          1.3
 Department of Commerce (DOC)




                                                                                                               6
                                                             Obligations
                                                     FY      FY       FY               Pipeline
              Program                Manager
                                                    2009    2010     2011    Total     Amount*

                                   U.S.
Foreign Agriculture Programs       Department of     44.0    –        –         44.0      43.0
                                   Agriculture
USAID transfer to U.S. Trade and
                                   USTDA              5.0    –        –          5.0          9.4
Development Agency (USTDA)
FATA roads, bridges                NAS               15.0    –        –         15.0      12.9
FATA roads (Swat, Ring Road)       NAS               40.0    –        –         40.0      40.0
Energy                             USAID            125.0   108.8     –        233.8     183.0
Agriculture                        USAID             95.0   130.6     –        225.6     159.0
Economic growth                    USAID            166.0   234.7     –        400.7     404.5
Subtotals                                           490.8   477.9     –       968.7      853.1
Focused Humanitarian and
Social Services
Health/Water                       USAID            102.0   196.5     –        298.5     282.5
Health                             USAID             –       –        –          –        –
Education                          USAID            163.5   239.8     –        403.3     349.5
Humanitarian assistance            USAID            209.0    75.0     –        284.0          8.9
Humanitarian programs – OFDA       USAID            101.5     6.3      2.1     109.9      86.4
World Food Programme               USAID             55.4    98.3     –        153.7      –
USAID transfer to U.N. Bhutto
                                   United Nations     1.0    –        –          1.0      –
Commission
Community Stabilization and        DOD/
                                                     10.0    –        –         10.0          9.1
Humanitarian Assistance Fund       DOS
                                   Department of
Mitigating Child Labor                               –        4.0     –          4.0      –
                                   Labor
Mine Action – Response
                                   POL                0.5    –        –          0.5          0.2
International
Trafficking in Persons             POL                0.5    –        –          0.5          0.4
Pakistan Internally Displaced
                                   POL               59.6    42.0     –        101.6      –
Persons
Afghan Refugees                    POL               74.7    45.3     –        120.0      –
Fulbright                          PAS               19.5    19.5     –         39.0      19.5
Other exchanges                    PAS                5.0     6.0     –         11.0      –
Public diplomacy operating
                                   PAS                2.0     2.0     –          4.0      –
expenses
Subtotals                                           804.2   734.7      2.1   1,541.0     756.5




                                                                                                    7
                                                                       Obligations
                                                             FY        FY       FY                 Pipeline
               Program                     Manager
                                                            2009      2010     2011    Total       Amount*

 Government Capacity
 Improvement
 Drug Enforcement Administration
                                        DEA                   1.5       1.5      1.5         4.5      –
 (DEA)
                                        Department of
 Energy programs                                             66.6      94.2     –        160.8         79.3
                                        Energy
                                        Department of
 Immigration and Customs
                                        Homeland              1.1       1.1      1.1         3.3      –
 Enforcement
                                        Security
 Federal Bureau of Investigation
                                        FBI                   1.0       1.8      1.0         3.8          1.3
 (FBI)/Legal Attaché Office
 Democracy Rights Labor                 POL                   6.8       5.7      0.7      13.2            1.5
 Democracy – National Endowment
                                        POL                   –         –       –        –            –
 for Democracy
 Counternarcotics                       NAS                   3.0       5.5     –            8.5          8.8
 Border Security (Aviation)             NAS                  37.0      45.9     –         82.9         73.0
 Border Security (Commodities,
                                        NAS                   0.2       –       –            0.2          5.3
 Training)
 Police/law enforcement training/rule
                                        NAS                  51.0      66.6     –        117.6        158.6
 of law
 Demand Reduction/Awareness             NAS                   0.5       1.5     –            2.0          2.7
 Program development support            NAS                   9.8       4.4     –         14.2        –
                                        Regional
                                        Security Office
 Counterterrorism                                            11.8       8.5     –         20.3         23.9
                                        (RSO), U.S.
                                        Embassy
                                        Economic
 Biosecurity Engagement                 Affairs Section,     12.5      16.0     –         28.5            9.7
                                        U.S. Embassy
 U.S. Institute of Peace (USIP)         USIP                  0.0       0.9     –            0.9          0.3
 Democracy/Governance                   USAID                40.0     116.4     –        156.4        210.4
 Office of Transition Initiatives       USAID                68.0      20.0     –         88.0         32.0
 Subtotals                                                  310.8     390.0      4.3    705.1        606.8
 Other Programs
 Strategic communications               DOD                   7.0       7.0      7.0      21.0        –
 Strategic communications               PAS                  30.9       4.0      –        34.9         46.0
 Subtotals                                                   37.9      11.0      7.0     55.9         46.0
 Totals                                                    1,643.7   2,178.2   109.2   3,931.1      2,394.3

Source: U.S. Embassy Islamabad.
* The Embassy provided pipeline amounts that capture unspent funds from FY 2002–11. These amounts are not
comparable to FY 2009, 2010, and 2011 obligations or accurate indicators of expenditures for those years.


                                                                                                                8
Flood Response

Pakistan experienced the worst floods in its history during August and September 2010. The flooding
has affected over 20.3 million people, caused approximately 1,980 deaths, and destroyed or damaged
about 1.7 million houses. (The map on the following page shows areas affected by the flooding.) The
U.S. Government has been working closely with the Government of Pakistan and the international
community to determine how best to make the transition from relief and early recovery to recovery
and reconstruction.

In total, USAID and DOS provided over $570 million in humanitarian assistance for relief and early
recovery from Pakistan’s floods. This includes support from USAID’s Office of Foreign Disaster
Assistance (OFDA), USAID’s Office of Food for Peace, and DOS’s Bureau of Population, Refugees, and
Migration. Assistance activities include provision of water, shelter, food security, and nutrition.
Assistance provided also supports economic recovery and development of market systems as well as
humanitarian coordination and information management. In addition, the U.S. Department of Defense
provided assistance for search and rescue, transport of key relief personnel, and the procurement and
transport of relief supplies throughout flood-affected provinces. As a result of DOD’s support, over
40,000 Pakistanis were moved out of harm’s way, and over 25 million pounds of supplies were
transported for distribution to those in need. DOD personnel flew over 7,700 hours at a cost of nearly
$1 million a day during uninterrupted flight time in support of the U.S. Government’s humanitarian aid
operation. DOD concluded its humanitarian assistance operations on November 30, 2010.

USAID/Pakistan’s early recovery activities totaled $69.8 million—including $10 million from the FY 2010
base appropriation, $50 million from the FY 2010 supplemental appropriation, and $9.8 million from
prior-year funds. Of this total, $47 million supports the U.N. Food and Agriculture Organization in
distributing wheat and vegetable seeds, fertilizers, and other farming inputs and providing cash-for-work
opportunities to flood-affected farmers in Khyber Pakhtunkhwa and Punjab, while $15 million supports
RSPN in providing sunflower seeds and fertilizer packages to farm families in Sindh. Together these
programs are designed to help provide food security to over 660,000 families by enabling them to jump-
start the winter planting season. The funds also supported the two local organizations, RSPN and PPAF,
in procuring and distributing relief goods and food to flood-affected individuals. USAID also supported
Pakistan’s National Disaster Management Authority, through a grant to the International Organization
for Migration (IOM), in procuring and distributing relief supplies. Other funding supported mobile health
teams, immunizations, a safe drinking water project, and the procurement of reproductive health kits for
thousands of flood-affected pregnant women. A small grants program is also providing $5 million to
assist flood-affected households with education and health services, community development, and the
protection of women and minority rights.

As Pakistan enters the recovery and reconstruction stage, USAID is considering how to address the
extensive damage while continuing to focus on the long-term goals of the Enhanced Partnership with
Pakistan legislation. As noted above, at the Pakistan Development Forum, held November 14-15, 2010,
in Islamabad, Special Representative for Afghanistan and Pakistan Richard Holbrooke announced U.S.
plans to commit up to $500 million from existing appropriations to support flood recovery and
reconstruction. USAID/Pakistan has carefully reviewed its budget, and in coordination with the


                                                                                                       9
Embassy, the Department of State, and the Government of Pakistan’s Economic Affairs Division, is
working to determine what flood recovery and reconstruction activities the U.S. Government will
support.



                                         Flood Map of Pakistan




 Source: USAID’s Office of Foreign Disaster Assistance, Geographic Information Unit.




                                                                                             10
High-Impact, High-Visibility Infrastructure

As the name implies, this category of assistance is intended to make a big difference in the Pakistani
economy, a difference that improves people’s livelihoods quickly, noticeably, and directly. The sectors in
which infrastructure programs are most critical are energy and agriculture—energy because all
businesses rely on it, and agriculture because it employs 60 percent of the population and consumes
90 percent of the country’s water. Chronic periodic shortages of both power and water limit economic
growth, as does inadequate infrastructure for agroenterprise. USAID, the U.S. Department of
Agriculture (USDA), the U.S. Department of Commerce (DOC), and the U.S. Embassy’s Public Affairs
Section (PAS) support programs under this category of assistance.

USAID has 23 high-impact, high-visibility programs under way. USAID’s programs seek to assist the
Government of Pakistan in supplying hydropower through the rehabilitation of the Gomal Zam and
Satpara Dams to meet growing energy demands. USAID’s current programs also support Pakistan’s
provincial governments with water management, supply, and sanitation; health facilities; and the delivery
of municipal services. Table 2 lists USAID’s programs along with status details.

   Table 2. USAID’s High-Impact, High-Visibility Infrastructure as of December 31, 2010

   Implementing Partner                Program Description                               Status
Water and Power Development         Satpara Dam, hydropower and          Current; Secretary certification
Authority (WAPDA)                   irrigation                           submitted to Congress*
                                    Gomal Zam Dam, hydropower            Current; Secretary certification
WAPDA
                                    and transmission line completion     submitted to Congress*
                                    Gomal Zam irrigation                 Current; preparing to conduct
WAPDA
                                    (agriculture)                        environmental assessment
                                    Tarbela hydroelectric power          Current; to install equipment in
WAPDA
                                    station rehabilitation               Jan. 2011
Ministry of Water and Power,
                                    Jamshorro thermal power
Power Generation Company                                                 Current; received equipment
                                    station repair and maintenance
(GENCO I)
                                    Muzaffargarh thermal power
GENCO II                                                                 Current; received equipment
                                    station repair and maintenance
                                    Guddu thermal power station
GENCO III                                                                Current
                                    repair and maintenance
                                                                         Current; signed agreement in Nov.
                                    Wind-power generation project
WAPDA                                                                    2010; Overseas Private Investment
                                    in Sindh
                                                                         Corporation also funding
                                    Irrigation Tube Well Efficiency      Current; first 250 tube wells under
International Resources Group
                                    Improvement Program                  pilot program completed Nov. 2010
Provincial Government of            Balochistan surface water            Current; completed initial
Balochistan                         management (Agriculture)             implementation assessment
                                    High-Efficiency Irrigation Systems   Current; funding delayed until FY 2011
Ministry of Food and Agriculture
                                    Program                              at Government of Pakistan’s request
                                    Water supply and sanitation
Provincial Government of Sindh                                           Current
                                    programs in Jacobabad
Provincial Government of Khyber     Water supply and sanitation
                                                                         Current
Pakhtunkhwa                         programs in Peshawar


                                                                                                              11
    Implementing Partner                 Program Description                             Status
                                                                          Current; most rehabilitation plans
Ministry of Health and Provincial
                                      Lady Willingdon Hospital            complete and Secretary certification
Government of Punjab
                                                                          submitted to Congress*
                                                                          Current; assessment and design
Ministry of Health and Provincial
                                      Jacobabad Civil Hospital            complete and Secretary certification
Government of Sindh
                                                                          submitted to Congress*
                                                                          Current; assessment and design
Ministry of Health and Provincial     Jinnah Postgraduate Medical
                                                                          complete and Secretary certification
Government of Sindh                   Center OB-GYN/Fistula Ward
                                                                          submitted to Congress*
                                      Karachi warehouse to store
                                                                          Current; construction approximately
Winrock International                 immunization and other medical
                                                                          66 percent complete
                                      supplies
                                      Construction of Parliamentary       Current; construction approximately
Habib-Rafique (Pvt.) Ltd./ CDM
                                      Institute                           33 percent ahead of schedule
Provincial Governments of Punjab,                                         Current; Punjab Planning and
                                      Municipal Services Delivery
Sindh, Khyber Pakhtunkhwa,                                                Development Department signed
                                      Program
Balochistan                                                               implementing letter on Dec. 3, 2010
                                                                          Current; 1,300 activities under way or
IOM, Creative Associates,             Pakistan Transition Initiative in   completed, including 375 village water
Internews                             FATA                                systems, 200 flood walls, 150 school
                                                                          renovations, and 125 road repairs
Government of Pakistan / FATA         South Waziristan Quick Impact
Secretariat / Frontier Works          Program (road, water, and           Current
Organization                          electricity)
Provincial Government of Khyber
                                      Malakand Quick Impact Program
Pakhtunkhwa / Provincial                                                  Current; construction has begun on 44
                                      (schools, health, water and
Reconstruction Rehabilitation, and                                        schools
                                      sanitation, government capacity)
Settlement Authority (PaRRSA)
                                      Commercial Law Development
DOC                                   Program: Advisors to support        Current
                                      Gem and Mineral Markets
Source: USAID/Pakistan.
* The FY 2010 appropriations bill makes funds available for government-to-government assistance to Pakistan only
if the Secretary of State certifies “that the U.S. Government and Pakistan have agreed, in writing, to clear and
achievable goals and objectives for the use of the funds, and have established mechanisms within each implementing
agency to ensure that the funds will be used for the purpose for which they are intended.”


In response to USAID OIG’s request for information on the progress of these programs, USAID
provided its performance indicators, but no information on actual progress. The performance indicators
listed below differ from the illustrative indicators provided in previous reports because USAID/Pakistan
is still establishing new indicators and targets across all sectors. Accordingly, progress on programs
under this category of assistance will be available when USAID begins to track results achieved on its
performance indicators. We believe that USAID has an imperative to accumulate, analyze, and report
information on the results achieved under its programs. One year after the launch of the civilian
assistance strategy in Pakistan, USAID has not been able to demonstrate measurable progress.




                                                                                                                 12
The following are the illustrative FY 2011 indicators reported by USAID:

•   Additional megawatt capacity constructed/rehabilitated as a result of U.S. Government (USG)
    assistance (target and result: no data).

•   Cumulative number of households with electricity as a result of USG assistance (target and result:
    no data).

•   Number of/percent change in gigawatt hours produced annually (target and result: no data).

•   Percent change in load shedding—cutting off energy on certain lines when demand exceeds supply
    (target and result: no data).

•   Percent of end users demonstrating decreased use of energy (target and result: no data).

•   Number of farmers who have adopted new technologies or management practices as a result of
    USG assistance (target and result: no data).

•   Number of additional hectares under improved technologies or management practices as a result of
    USG assistance (target and result: no data).

•   Number of flood-affected watercourses (irrigation channels) rehabilitated (target and result: no
    data).

USAID reported the following examples of success in its portfolio of energy programs:

•   The pilot of the Tube Well Efficiency Improvement Program has been completed with the
    replacement of 250 inefficient tube wells. The mission’s Energy Office is finalizing agreements to
    continue the program and replace up to 11,000 tube well pumps, which will reduce farmers’ electric
    bills by approximately $7.7 million.

•   USAID and Pakistan’s Ministry of Water and Power signed a statement of intent to support a
    public-private partnership increasing wind energy use in Sindh Province.

USAID also reported the following challenges to the implementation of its energy, agriculture, and
economic growth programs:

•   Congress has raised concerns about the USAID assessment of the Satpara Dam, and funding will not
    be obligated until consultations are complete.

•   As noted last quarter, progress on implementing high-efficiency irrigation systems through a
    Government of Pakistan program has stalled after the government asked that this program be
    delayed until 2011, as flood recovery needs were more immediate. Also, the amended proposal for



                                                                                                   13
       high-efficiency irrigation has yet to be approved by Pakistani Government’s Central Development
       Working Party.

•      Hiring sufficient and skilled staff in a timely manner remains a challenge. The program is growing
       rapidly, and the hiring process has not yielded expected results.

•      New agriculture and energy projects are being put on hold until funding is reprogrammed for flood
       recovery.

USDA’s programming in this category focuses on modernizing agricultural infrastructure. Last quarter
USDA signed a $30 million Food for Progress grant agreement with a U.S.-based NGO to implement a
new Pakistan Agriculture and Cold Chain Development Project. The project aims to advance
agriculture in the Balochistan Province of southwest Pakistan by linking private sector participants in the
production of perishable goods with new cold-chain facilities 10 and enhanced production techniques.
Implementing international phytosanitary and regulatory standards will also help shift horticultural and
fish production toward larger, more profitable markets. By carrying out these activities, the project
seeks to improve food quality and supply, realize higher prices for producers, and deliver a higher-value
product to consumers. Winrock International, the U.S.-based grantee, has begun implementation.

As reported for the past two quarters, USDA’s plan for the investment of resources to support
agricultural development in Pakistan has been reviewed and approved by an interagency team and the
U.S. House of Representatives Committee on Appropriations. Concept notes have been shared with
Pakistani and international partners, and program design will begin shortly.

DOC programs focus on legal aspects of commercial activities. During October and November 2010,
through the Commercial Law and Diplomacy Program (CLDP), a delegation of Pakistani judges visited
the United States. The delegation, led by a Supreme Court justice and including four members of
Pakistan’s high courts, traveled to Washington, D.C., and California for a program to enhance judicial
enforcement of intellectual property rights and of foreign arbitration awards. During their visit the
delegates met with two U.S. Supreme Court justices; a number of U.S. and state court judges; and
officials from the U.S. Patent and Trademark Office, the Federal Judicial Center, and the International
Center for Settlement of Investment Disputes. In early December 2010, the Commercial Law and
Diplomacy Program also organized an international workshop on business incubation centers in
Islamabad. The event featured the participation of justices from Pakistan’s Supreme Court, academic
experts, and business executives.

DOC also reported the completion of the first draft of market research reports in support of trade and
investment promotion activities. Additionally, DOC is planning a new round of investment promotion
seminars, which will begin in 2011.




                                                            
10
     Cold-chain facilities keep goods such as food at a controlled temperature at all stages of storage and distribution.


                                                                                                                      14
For its part, PAS has three programs related to high-impact, high-visibility infrastructure: the
procurement of electronic governance infrastructure, radio transmitter towers, and the reestablishment
of public diplomacy centers.

The past quarter saw progress toward implementation of a project to build a National Data Center for
Pakistan, enabling the Government of Pakistan to use e-mail, Web-hosting, and file archival technology.
The signing of the program implementation letter is tentatively scheduled for March 2011. This project
is an initiative of the Communications and Public Diplomacy Working Group of the U.S.-Pakistan
Strategic Dialogue, administered jointly by PAS and USAID.

PAS and USAID are also working to administer a project to construct an AM radio transmitter for
Radio Pakistan, which will serve the province of Balochistan. (This is in addition to the $7 million radio
transmitter tower program already being implemented in Khyber Pakhtunkhwa.) Concept review and
activity approval are expected to begin in late March, following the launch of the National Data Center.
Like the National Data Center, the AM transmitter is an initiative stemming from the Strategic Dialogue.

Additionally, PAS continues to consider options for public diplomacy platforms in Pakistan—possibly
including secure, open-access American Centers in Islamabad, Karachi, or Lahore. DOS has advised PAS
on the legal and technical requirements of such facilities, and PAS will continue to coordinate with
Washington on this program.

Focused Humanitarian and Social Services: Immediate Postcrisis and
Humanitarian Assistance

Through international relief agencies and local institutions, the U.S. Government channels assistance for
people affected by natural disasters or ongoing military operations in Waziristan and other areas along
the border with Afghanistan. In addition, the U.S. Government supports the Government of Pakistan’s
efforts to provide basic health, education, and other services; rehabilitate infrastructure; and create jobs.
USAID manages the largest U.S. Government humanitarian assistance programs in Pakistan, while DOD
manages some smaller food and medical assistance programs.

During the reporting period, USAID had 24 programs under way to support immediate postcrisis and
humanitarian assistance. Programs provided cash transfers for housing damage assistance and continue
to supply safe drinking water, nutritional support, and health and hygiene kits to flood-affected areas.
Table 3 lists the status of USAID’s programs for postcrisis and humanitarian assistance.

          Table 3. USAID’s Postcrisis and Humanitarian Assistance Programs as of
                                    December 31, 2010

Implementing Partner                     Program Description                              Status
                                                                               Completed; grants made to
                            Grants to violence-affected and flood-affected
Khushhali Bank                                                                 businesses destroyed by
                            businesses, Bolton Market, Karachi
                                                                               Bolton Market fire




                                                                                                           15
Implementing Partner                      Program Description                                 Status
                            Emergency operations in Pakistan, including
World Food Programme        support for internally displaced persons (IDPs) in    Completed
                            Hunza
                                                                                  Completed; increased for
World Food Programme        Food Security Relief Program in Pakistan
                                                                                  flood response
                            Seed and fertilizer distribution to flood-affected
U.N. Food and Agriculture
                            farmers in Khyber Pakhtunkhwa, Punjab, and            Completed
Organization
                            Balochistan
                            Cash transfer to assist IDPs in Khyber
Government of Pakistan                                                            Completed
                            Pakhtunkhwa
                            Cash transfer for housing damage assistance for
PaRRSA                                                                            Completed
                            Khyber Pakhtunkhwa and FATA
                            Cash transfer for the Benazir Income Support
Government of Pakistan                                                            Completed
                            Program
                            Mobile health teams and nutritional support in
Aga Khan University                                                               Current; funds disbursed
                            flood-affected areas
U.N. Population Fund        Reproductive health and hygiene kits for women in
                                                                                  Current; funds disbursed
(UNFPA)                     flood-affected areas
World Health
Organization (WHO) and      Immunizations for polio and measles in flood-
                                                                                  Current; funds disbursed
U.N. Children's Fund        affected areas
(UNICEF)
                            Maternal and child health, safe drinking water in
UNICEF                                                                            Current; funds disbursed
                            flood-affected areas
                                                                                  Current; funds disbursed to
                            Multi Donor Trust Fund for reconstruction in          World Bank, and three
World Bank                  border areas, a portion of which will be used to      projects will begin soon
                            repair flood-damaged facilities                       (livelihoods and economic
                                                                                  opportunity)
                            Procurement and distribution of relief supplies for
PPAF                                                                              Current; funds disbursed
                            flood-affected people
                            Procurement and distribution of relief supplies for   Current; funds disbursed, and
RSPN
                            flood-affected people (Sindh)                         seeds to be distributed
                            Capacity building and procurement of relief
IOM                         supplies for flood-affected people on behalf of the   Current; funds disbursed
                            National Disaster Management Authority
                                                                                  Current; first dry mango
                            Firms project building small and medium-sized         product retailed in U.S.
Chemonics                   enterprises’ competitiveness in areas vulnerable to   market in Dec. 2010,
                            conflict                                              supporting Swat hotels and
                                                                                  fisheries damaged by floods
                                                                                  Current; ongoing since 2008;
CHF International, Inc.     Livelihood Development Program in lower FATA          disbursed approximately
                                                                                  33 percent of funding
Associates in               South Waziristan Agency Monitoring and
                                                                                  Current
Development                 Evaluation Contract
                                                                                  Current; rehabilitation of sites
Pakistan Broadcasting
                            Radio transmission support to FATA                    scheduled for first quarter
Corporation
                                                                                  2011
                                                                                  Current; 21 schools and 15
CDM                         Pakistan Reconstruction Project (earthquake)
                                                                                  health units completed



                                                                                                                16
Implementing Partner                     Program Description                              Status
                            Community Rehabilitation Infrastructure Support
Winrock International                                                          Current
                            Program
KPMG Taseer Hadi            Accelerated capacity building of PaRRSA            Current

UNICEF                      Child Protection Center                            Current
Mennonite Economic          Entrepreneurs Program supporting women’s
                                                                               Current
Development Associates      microenterprises in vulnerable areas
Source: USAID/Pakistan.

In response to USAID OIG’s request for information on the progress of these programs, USAID
provided the following illustrative performance indicators for FY 2011. As previously mentioned, these
indicators differ from those previously reported for this category of assistance.

•   Number of beneficiaries assisted by USAID-supported protection and solutions activities (target and
    result: no data).

•   Value of income support provided to women living below the poverty line (target and result: no
    data).

•   Percentage of disaster-affected households provided with basic inputs for survival, recovery, or
    restoration of productive capacity (target and result: no data).

USAID also reported the following examples of progress in its immediate postcrisis and humanitarian
assistance programs:

•   To restore and improve agricultural livelihoods destroyed by the floods and to address food
    security, the USAID/Pakistan Agriculture Office managed a crosscutting program (implemented by
    the U.N. Food and Agriculture Organization) that has jump-started the winter wheat planting season
    with seed distribution. During the quarter, over 400,000 households in Khyber Pakhtunkhwa,
    Balochistan, and Punjab benefited from wheat and vegetable seed distribution, and over 140,000
    households in these areas received livestock supplies.

•   Grant assistance was delivered to 234 Swat hotels and 22 fisheries to help them rebuild from flood
    damage in time for the upcoming tourist season. Further assistance will be provided on
    demonstration of progress toward, and commitment to, using the funds to rebuild businesses that
    have suffered from obsolescence, conflict damage, and the recent floods.

•   The Entrepreneurs Program, supporting women-led microenterprises in vulnerable regions, has thus
    far assisted 20,000 women. A third cycle of microgrants will be issued to conflict-affected
    communities in the coming months.

•   CHF International, Inc. is progressing in job creation, skills training, and income generation activities
    in lower FATA.




                                                                                                          17
In addition to the examples of progress described above, USAID identified one significant problem in
this area of assistance: the Livelihoods Program in upper FATA, implemented by AED, ended early
because of allegations of fraud. On December 8, 2010, USAID suspended AED from receiving new
government contracts because of an ongoing investigation.

Focused Humanitarian and Social Services: Increased Access to and
Quality of Education and Health Services

This category of assistance aims to provide quality education and health services to underserved
populations, particularly those living in areas likely to come under the sway of extremist groups. In
education, programs intend to bring more girls into the classroom, increase the use of new educational
technologies, and improve teachers’ skills. In health care, the goals are to improve maternal and child
care, provide family planning services, and prevent and treat diseases such as hepatitis, polio, and
tuberculosis. USAID is the primary U.S. Government agency contributing to this area of assistance;
USDA and PAS also manage programs in this area.

USAID has 21 programs under way to support education and health services. These programs focus on
improvement in basic and higher education, maternal and child health, family planning, and polio
eradication.

USAID is planning an additional four education programs and one health program with Pakistani
institutions. Table 4 lists USAID’s current and planned programs for education and health.

 Table 4. USAID’s Programs for Education and Health Services as of December 31, 2010

   Implementing Partner            Program Description                               Status
JSI Research and Training      Pakistan Initiative for Mothers
                                                                   Completed this quarter
Institute                      and Newborns
                               Pakistan Safe Drinking Water
Abt Associates                                                     Completed this quarter
                               and Hygiene Project
                               Pre-Service Teacher Education
AED                                                                Current; ongoing for 2 years
                               Program (Pre-STEP)
American Institutes for        Links to Learning—Education         Current; ongoing for 3 years; contributing
Research                       Support to Pakistan (Ed-LINKS)      to flood recovery
                               Children's Television Program –
Rafi Peer Theatre Workshop                                         Current
                               interactive teaching and learning
                               Pakistan and U.S. Science and
National Academy of Sciences                                       Current; funding disbursed
                               Technology Cooperation
                               Higher Education Commission –
                                                                   Current; discuss future with
AED                            Financial Aid Development
                                                                   USAID/Washington
                               Program
American University            Collaborative capacity building
                                                                   Current; ongoing for 2 years
Washington College of Law      for human rights and gender
                               Budget support to Higher            Current; dollars disbursed and FY 2010
Government of Pakistan
                               Education Commission                program content under negotiation
                               Fulbright scholarships (through
Government of Pakistan                                             Current; funding disbursed
                               DOS)


                                                                                                            18
    Implementing Partner              Program Description                                Status
                                  Higher Education Commission –
Government of Pakistan            Merit and Needs-Based                Current; funding disbursed
                                  Scholarship Program
                                  Diversification of family planning
Population Council                                                     Current
                                  activities
                                  Contraceptive commodities for
Contraceptive Commodities
                                  the Ministries of Health and         Current
Procurement
                                  Population Welfare
John Snow, Inc.                   Contraceptive logistic support       Current
UNICEF, WHO                       Polio eradication initiative         Current
Royal Netherlands Tuberculosis
                                  Tuberculosis Control Assistance
Association (Koninklijk
                                  Program and National                 Current
Nederlandsche Centrale
                                  Prevalence Survey
Vereeniging, or KNCV)
                                  Involvement of religious leaders
Pathfinder International          in health and development,           Current
                                  extending service delivery
Centers for Disease Control       Pakistan Field Epidemiology and
                                                                       Current; ongoing for 4 years
and Prevention                    Laboratory Training Program
                                  Developing and strengthening
Health Services Academy of
                                  institutional capacity in public     Current; ongoing for 2.5 years
Pakistan
                                  health training and research
                                  Improve children’s health in
Save the Children                                                      Current; ongoing for 4 years
                                  FATA
Government of Pakistan            Disease surveillance                 Current; completing design
                                  Maternal and child health, family
Government of Pakistan                                                 Planning stage
                                  planning, and immunizations
                                  Health – Higher education and
To be determined                                                       Planning stage
                                  training
Provincial Government of          Southern Punjab Basic Education
                                                                       Planning stage
Punjab                            Program
International School of           International School of
                                                                       Planning stage
Islamabad                         Islamabad
Government of Pakistan            Universities and teaching
                                                                       Planning stage
Ministries, local organizations   hospitals

Source: USAID/Pakistan.

USAID provided the following illustrative indicators to be used in measuring progress for its education
and health programs. These indicators differ from those previously reported for this category of
assistance.

•   Number of children less than 12 months of age who received three doses of the combined
    diphtheria-pertussis-tetanus vaccine from USG-supported programs (target and result: no data).

•   Percentage of women of reproductive age using a modern method of contraception (target and
    result: no data).

•   Number of births attended by skilled health personnel in target areas (target and result: no data).

                                                                                                          19
•   Percent change in the number of students completing primary, middle, and secondary education in
    target areas (target and result: no data).

•   Percent change in primary school enrollment in target districts (target and result: no data).

•   Number of students who receive stipends for enrollment and regular attendance (target and result:
    no data).

•   Number of school management committees with active school improvement plans (target and
    result: no data).

•   Number of U.S.-supported partnerships between U.S. and Pakistani higher education institutions
    (target and result: no data).

USAID reported the following examples of success in it education and health programs:

•   Through the Financial Aid Development Program implemented by the Higher Education
    Commission, 36 financial aid and development personnel have received alumni association training,
    project management training, and communication and product development training. A corporate
    social responsibility meeting was held with the Arhad Chamber of Commerce to explore possible
    funding and collaboration between universities and private sector leaders.

•   As a result of the Merit and Needs-Based Scholarship Program, approximately 400 scholarships
    were awarded to academically qualified students with financial need to study at Pakistani universities
    during the 2010-2011 academic year. An additional 413 students are continuing their education
    under the Merit and Needs-Based Scholarship Program. Furthermore, the Higher Education
    Commission, in collaboration with 11 local universities, is conducting an outreach program to offer
    more scholarships to female students in remote areas.

•   The National Tuberculosis Survey was launched on December 13, 2010.

•   The Safe Drinking Water and Hygiene Project, implemented by Abt Associates, was completed this
    quarter.

Despite the aforementioned success, USAID also reported a number of problems that are affecting
implementation of its education and health programs:

•   The Government of Pakistan does not have an approved health policy document to guide and
    prioritize government or donor response, complicating the design of health programs.

•   The 18th amendment to the Pakistani Constitution is set to devolve responsibilities in the health
    sector to provincial governments in July 2011, and the federal Ministry of Population Welfare closed
    its doors on December 7, 2010. USAID lacks guidance from the Government of Pakistan on how
    devolution affects assistance delivery. Likewise, the local governance ordinances for water and
    sanitation have not been finalized in the provinces, where constitutional responsibility for water and


                                                                                                       20
    sanitation services rests. With numerous government actors operating in this sector, challenges
    arise related to communication, coordination, and competition for funding.

•   Through the Links to Learning—Education Support to Pakistan (Ed-LINKS) Program, USAID will be
    supporting the rehabilitation of 135 flood-affected schools in Sindh and Balochistan ($4 million).
    However, many flood-affected schools remain closed or are occupied as relief camps, which will
    cause a delay in implementation. The delivery of school supplies to Malakand also was delayed
    because of floods.

•   A program leading to an associate degree in education has been launched in Pakistan with the
    support of the Pre-Service Teacher Education Program (Pre-STEP) implemented by AED. Pakistani
    researchers have been selected to conduct independent research with funding from this program. A
    subaward to Columbia University for technical assistance has been completed. However, USAID
    recently suspended AED from receiving new government contracts because of an ongoing
    investigation, and the U.S. Embassy in Islamabad is awaiting approval from USAID/Washington
    before providing additional funding to AED for Pre-STEP.

•   Rafi Peer Theatre Workshop, a local implementing partner responsible for launching the Children’s
    Television Program, conducted provincial consultation workshops in all four provinces. However,
    Rafi Peer’s limited management and financial capacity has been a major obstacle in implementing
    program activities. Efforts are under way to provide additional support to strengthen the
    organization’s financial and management capacity. USAID continues to provide regular advice to Rafi
    Peer in developing strong management and financial systems and is performing due diligence in
    processing vouchers.

USDA’s programming in this category consists of the Food for Education Program, which supports
increased access to and quality of education and health services. To implement the program, USDA
awarded Land O’Lakes and the U.N. World Food Programme grants totaling an estimated $17 million.
Under these two grants, USDA will supply an estimated 6,540 metric tons of commodities to feed
schoolchildren and an estimated $6 million to implement rehabilitation projects and capacity-building
measures for schools. USDA signed a Food for Education grant agreement with Land O’Lakes in early
September 2010, and Land O’Lakes hopes to launch the school feeding program in March 2011. The
World Food Programme provides fortified edible oil to students (particularly girls) as an incentive to
families to send their daughters to school. The World Food Programme monitors enrollment,
attendance, and retention. Nearly 3,251 schools and more than 431,000 female students participate in
the programs.

PAS has two major programs that contribute to increased access to and quality of education services.
PAS supports a $35.65 million slate of academic and professional programs designed to provide
enhanced educational and professional skills, leadership training, and connections with the United States
for more than 6,000 Pakistanis over the next 18 months. These programs range from short-term (3-
week) International Visitor Leadership Program exchanges to full academic degree programs, as well as
English Access Microscholarship Programs that reach thousands of disadvantaged youth. In addition,
PAS sponsors a $16.4 million program of Fulbright exchanges, which over a period of years is designed

                                                                                                      21
to substantially increase the number of faculty at Pakistani colleges and universities with master’s and
doctoral degrees.

Government Capacity Development: Improved National and Local
Governance

Programs in this category are intended to build capacity at the national, provincial, and local levels—
particularly in targeted vulnerable areas—to provide basic municipal services, promote civil society
advocacy and oversight, improve the administration and conduct of elections, enhance parliamentary
function and oversight of the executive, improve the responsiveness of political parties, promote greater
gender equity, and strengthen systems for accountability and transparency in public expenditures.
USAID, USDA, and the U.S. Embassy’s PAS have programs to strengthen government capacity and
improve governance.

USAID has 22 programs under way to improve government capacity at the national and local levels.
USAID’s programs support improvements in governance through the establishment of an antifraud
hotline and assistance with developing an energy plan and energy and economic policy. USAID’s
programs also include civil society support. A political party development program is currently in the
planning stage. Table 5 lists the status of USAID’s programs for national and local governance.

           Table 5. USAID’s Programs to Improve National and Local Governance
                                 as of December 31, 2010

 Implementing Partner                  Program Description                             Status
                                                                          Current; to be up and running
Transparency International     Antifraud hotline
                                                                          next quarter
                                                                          Current; ongoing since Jan. 2009;
Transparency International     Support and Public Awareness Program
                                                                          complete next year
International Republican                                                  Current; first poll begins next
                               Three nationwide polls
Institute                                                                 quarter
International Foundation for                                              Current; to be completed next
                               Election Support Program
Electoral Systems                                                         quarter
                                                                          Current; 25 awards made to
Aurat Foundation               Gender Equity Program
                                                                          women in flood-affected areas
National Rural Support         Small Grants Program for Unsolicited
                                                                          Current
Program                        Proposals and Chief of Mission Fund
DOS                            e-Governance, National Data Center         Current
Development Alternatives,                                                 Current; contract complete this
                               FATA Capacity Building Program
Inc.                                                                      quarter
                               Bajaur Urban Centers (urban planning and
FATA Secretariat                                                          Current
                               systems for municipal government)
                               Pakistan Energy Indefinite Quantity
Advanced Engineering
                               Contract: Provide policy reform advisors
Associates International and                                              Current
                               to support the USAID/Government of
Government of Pakistan
                               Pakistan energy partnership




                                                                                                            22
    Implementing Partner                 Program Description                               Status
                                 Power Distribution Improvement Program
International Resources
                                 to improve management capacity, financial    Current; operational audits under
Group / Pakistan Electric
                                 systems, billings and collections of         way
Power Company
                                 distribution companies
U.N. Food and Agriculture        Assistance to Balochistan to improve
                                                                              Current; funds half disbursed
Organization                     livelihoods and food security
                                 Dairy Development Initiative / Rural
Nestle                           Development Fund: Improve milk               Current
                                 production and marketing
                                 Work with the Ministry of Petroleum and
U.S. Geological Survey           Natural Resources to assess conventional     Current
                                 and unconventional gas reserves
Advanced Engineering
                                 Energy policy and capacity building          Current
Associates International
                                 Improve production and marketing of
                                 commodities, enhance Government of
USDA                                                                          Current
                                 Pakistan research and extension work, help
                                 eradicate agricultural diseases
                                 Improve customs procedures and Pakistani
                                                                              Current; approximately 25 percent
Deloitte Consulting, LLC         Commercial Service to increase exports
                                                                              disbursed
                                 and trade at Afghan border
                                 Competitive Support Fund: Advisors to
                                 provide technical assistance on policy
Ministry of Finance                                                           Current; ongoing 4.5 years
                                 decisions, regulatory frameworks, and
                                 public-private partnerships
U.S. Department of the           Tax, debt, and banking regulation advisors
                                                                              Current
Treasury                         to the Government of Pakistan
Multiple implementing
                                 Technical advisors embedded in Ministry of
partners (blanket purchasing                                                  Current
                                 Health and provincial units
agreement)
State Bank of Pakistan; Kashf
Microfinance; others to be       Microfinance                                 Current
determined
To be determined                 Political Party Development Program          Planning stage

Source: USAID/Pakistan.

USAID identified the following illustrative performance indicators for monitoring and evaluation of its
programs for improved national and local governance. Two of the three indicators differ from those
previously reported for this category of assistance.

•     Percent of citizens that express confidence in target institutions and processes (target and result: no
      data).

•     Percent of targeted municipalities that make decisions based on joint citizen-local government
      planning board or working groups (target and result: no data).

•     Number of civil society organizations receiving USG-assisted training in advocacy (target and result:
      no data).


                                                                                                              23
In addition, USAID provided examples of success in its government capacity development programs:

•   The Small Grants Program distributed more than $529,000 to ten civil society organizations
    throughout Pakistan. By early 2011, the Gender Equity Program is expected to distribute
    approximately $1.5 million to 23 Pakistani NGOs and 6 Government of Pakistan organizations
    including women’s crisis centers in four cities. These programs create opportunities for capable
    Pakistani NGOs, civil society organizations, and community groups to pursue small-scale, innovative
    projects in support of U.S. Government strategic goals in Pakistan. These activities are fostering
    greater visibility at the grassroots level for USAID assistance in Pakistan.

•   The International Republican Institute received a $500,000 cooperative agreement to implement a
    nationwide polling project and expects to conduct its initial survey in January 2011.

USAID also reported challenges to implementing its programs for improved governance:

•   Several key programs are on hold because of the devastating floods and redirection of funding to
    relief. Little progress was made on the time-sensitive Election Support Program. The request for
    applications for the Political Party Development Program was ready to be issued, but was placed on
    hold because of flood relief priorities.

•   As reported last quarter, securing government buy-in in FATA remains a key challenge for any
    program focused on improving governance. Weak coordination among Government of Pakistan
    entities is also an obstacle to coordinating actions and making progress.

Under this category, USDA manages three types of programs to build Pakistani institutional capacity in
the agricultural sector:

•   Endowments are used to support agricultural research and development activities in accordance
    with Pakistan’s long-term development goals and to promote scientific cooperation between
    Pakistani and U.S. agricultural scientists. Since 2000, USDA has established six endowments totaling
    $56.7 million. Of this amount, $6.7 million was recently transferred to the economic wing of the
    Ministry of Food and Agriculture after a 2-year delay spent transferring funds among three
    ministries; opening a new account; and preparing, vetting, approving, and signing Recipient Agency
    Agreements with the Agricultural University of Peshawar and the Pakistan Forest Institute.

•   Exchange programs for technical assistance are used to develop linkages between Pakistani scientists
    and their counterparts in the United States. USDA plans to expand the number and quality of
    exchanges between Pakistani and U.S. scientists to improve the capacity of Pakistan’s agricultural
    research system. USDA is currently reviewing program proposals to implement in 2011.

•   The Trilateral (Afghanistan-Pakistan-United States) Secretariat on Agriculture established three
    working groups: Food Security and Applied Research, Water Management, and Trade Corridors.
    On October 20, 2010, members of the Agricultural Trilateral subsequently met in Washington,
    D.C., to renew their commitment to the agricultural investment strategy and ongoing agricultural


                                                                                                     24
    development projects. Progress on implementation of the agricultural strategy was highlighted by
    initiation of USDA’s Wheat Productivity Enhancement Program, Cotton Productivity Enhancement
    Program, and Animal and Plant Disease Control Programs in collaboration with its Pakistani
    partners. Cross-cutting initiatives such as USAID’s Satpara Dam and Irrigation Program and the
    Irrigation Tube Well Efficiency Program are on track as originally planned. Both the U.S.
    Government and the Government of Pakistan reaffirmed that such water storage and delivery
    initiatives are imperative to the advancement of Pakistan’s overall agricultural sector. The next
    Agricultural Trilateral meeting is scheduled for February 24-26, 2011, in Washington, D.C.

PAS contributes to government capacity building through its communications programs. PAS reported
on two programs, one supporting the development of regulatory policy for telecommunications and the
other arranging government exchanges.

In addition to creating the National Data Center for Pakistan (described under high-impact, high-visibility
programs), PAS will also assist the Ministry of Information Technology in building the legal infrastructure
for a modern telecommunications regulatory policy. Telecommunications policy development is a
Strategic Dialogue initiative, and to this end PAS will facilitate consultations between Ministry officials
and their counterparts in the United States.

PAS has also developed exchange programs for midcareer government professionals that will occur
throughout 2011. These exchanges include graduate degree programs for Pakistani diplomats,
internships for public information professionals, and International Visitor Leadership Programs for
government spokespeople and water resource managers.

Government Capacity Development: Improved Security and Legal
Institutions

This category targets areas prone to conflict and those with a weak government presence. Assistance
focuses on improving policing and expediting the disposal of legal cases through the court system. The
U.S. Embassy’s Narcotics Affairs Section (NAS), Regional Security Office (RSO), and PAS support
assistance programs in this category.

As previously reported, NAS, in coordination with other U.S. law enforcement agencies in Pakistan,
manages five programs that support improved security and legal institutions. These programs address
counternarcotics, border security and related infrastructure, law enforcement reform through police
and prosecutor training, and support for the Ministry of Interior’s Air Wing. According to NAS, all of
its projects are implemented in partnership with the Government of Pakistan, and the infrastructure
projects use Pakistani contracting mechanisms.

On December 11, 2010, NAS and the Government of Pakistan signed a letter of agreement authorizing
expenditure of an additional $40 million in supplemental U.S. Government assistance funds for FY 2010.
The funds will support police reform programs in Punjab and Sindh Provinces, a national women’s police
program, and a corrections program.



                                                                                                        25
To measure the progress of its new programs, NAS identified the following performance indicators:

•   Number of law enforcement officials trained, number of police facilities reconstructed or
    rehabilitated, and amount of equipment delivered for the Punjab and Sindh Police Reform Program
    and the Women’s Police Program.

•   Completion of a prison census, number of corrections officers trained, and training facility
    established for the corrections program.

NAS reported the following successes for its current programs:

•   Number of hours flown by the Air Wing under the aviation program. During the reporting period, the
    Air Wing program logged 492 hours. Missions of note included the completion of flood relief
    support with the Pakistan Army and National Disaster Management Agency in Sindh Province,
    support of Pakistan Anti-Narcotics Force operations along the Iran and Afghanistan borders,
    support of the Frontier Corps in Balochistan and in Khyber Pakhtunkhwa, and support of the Sindh
    Rangers in Karachi during civil unrest.

•   Number of kilometers of road constructed and percentage of other infrastructure projects completed under
    the infrastructure program. Three counternarcotics roads are under construction in the Prang Ghar
    region of Mohmand Agency.

•   Number of law enforcement officials trained, number of police facilities reconstructed or rehabilitated, and
    amount of equipment delivered under the Civilian Law Enforcement Reform Program. More than 400 law
    enforcement officials from across Pakistan received training on topics ranging from basic criminal
    investigations to training management.

•   Amount of equipment delivered under the Civilian Law Enforcement Reform Program. Nearly $1 million
    worth of commodities—barriers and barbed wire—were delivered to the Khyber Pakhtunkhwa
    police. An additional $677,647 worth of commodities such as training supplies, generators,
    ambulances, and communication equipment were ordered for the Khyber Pakhtunkhwa police, the
    Anti-Narcotics Force, Frontier Scouts, and other law enforcement entities.

NAS reported that although its programs are making progress, challenges have slowed implementation:

•   Many police stations were in the path of the unprecedented floods that devastated Pakistan.
    Commodities now in the pipeline will help in reconstituting law enforcement capability in Khyber
    Pakhtunkhwa. NAS has coordinated with the U.N. Office on Drugs and Crime, which is developing
    its own plan for rebuilding flood-damaged capacity, to avoid duplication of effort.

•   Police facilities across the country continue to be targeted, although improved security measures
    have reduced attacks compared with last quarter. Police trainers in particular continue to be the



                                                                                                             26
       targets of hostile surveillance. NAS continues to monitor threat reporting closely and take every
       possible precaution to ensure the safety of police instructors.

•      Visas for police trainers remain a challenge, although the situation has improved markedly over the
       last quarter. Typically, outside trainers have been issued 30-day single-entry visas that are not
       appropriate for their duties. In addition to the visa problem, clearances for access to the Air Wing
       compound are tightly controlled and often denied by the Frontier Corps-Balochistan.

•      Delays in commodity shipments occur routinely when Government of Pakistan ministries postpone
       the issuance of certificates to allow such shipments to clear customs. Whether this is the result of
       inefficiency or a rent-seeking arrangement predicated on the expectation of collecting demurrage
       fees (which NAS categorically refuses to pay) is unknown, but the effect is adding 2–6 months to the
       delivery time for vitally needed commodities, including vehicles and body armor.

The RSO at the U.S. Embassy in Islamabad reported on its antiterrorism assistance. The RSO provides a
full range of tactical and investigative courses and support to Pakistani federal and provincial law
enforcement agencies, especially those operating in Khyber Pakhtunkhwa and Balochistan. During the
reporting period, the RSO conducted six courses and trained 121 officers. Two of the six courses—on
the protection of high-ranking officials and crisis response—were instructor development courses for
Pakistani trainers.

PAS also contributes to this category of assistance by supporting exchange programs. These include
short-term visits for Pakistani border control officers to meet and work with their counterparts in the
United States, strengthening partnerships and exchanging ideas.

Assistance to Pakistani Institutions

To ensure greater Pakistani responsiveness and increase the sustainability of civilian programs, the
United States plans to implement more programs through Government of Pakistan institutions, including
national and provincial governments, Pakistani contractors, grantees, and institutions. 11 As noted in
previous quarterly reports, the purpose of this shift is to:

•      Align programs with locally identified priorities.

•      Build Pakistanis’ sense of ownership of programs.

•      Build Pakistani institutional and leadership capacity for better fiscal management.

•      Promote decentralization to more actively engage provincial and local partners and beneficiaries.

                                                            
11
    The Enhanced Partnership with Pakistan Act of 2009 encourages the use of Pakistani firms and NGOs, as
appropriate, to implement the democratic, economic, and development assistance programs authorized under
Title I of the act (Section 101(c)(3)).


                                                                                                           27
•      Deliver assistance on-budget 12 to promote transparency, harmonization, and better budget planning
       by the Government of Pakistan.

•      Reduce costs.

According to USAID, as of December 31, 2010, it had made 76 awards totaling nearly $1.361 billion to
Pakistani institutions (Table 6). USAID reported making 15 awards totaling approximately $93.5 million
during the reporting period. Awards made by USAID fall into one of the following four categories:
budget support (cash transfers), direct funding for federal government projects, direct funding for
provincial government projects, and awards to Pakistani NGOs.

                      Table 6. Assistance to Pakistani Institutions as of December 31, 2010

                                                                            Number
                                                                                                 Value
                                                          Type                of
                                                                                                  ($)
                                                                            Awards
    Budget Support* (Cash Transfers)                                             6             359,000,000

    Higher Education Commission (July 2010)                                       1              45,000,000

    Higher Education Commission (April 2010)                                      1              45,000,000

    Housing damage assistance for Khyber Pakhtunkhwa and FATA                     1              65,000,000

    Internally displaced persons in Khyber Pakhtunkhwa                            1              44,000,000

    Benazir Income Support Program                                                1              85,000,000

    Benazir Income Support Program                                                1              75,000,000

    Direct Funding for Federal Government Projects                              12             491,121,000
    Higher Education Commission for Merit and Needs-Based Scholarship
                                                                                  1               1,500,000
    Program†
    High-Efficiency Irrigation Systems Program                                    1              50,000,000

    South Waziristan Quick Impact Program (road, water, and electricity)          1              55,000,000
    Malakand Quick Impact Program (schools, health, water and sanitation,
                                                                                  1              36,000,000
    government capacity)
    Rehabilitation of thermal plant in Jamshorro                                  1              18,360,000

    Rehabilitation of thermal plant in Guddu                                      1              18,068,000

    Rehabilitation of thermal plant in Muzaffargarh                               1              15,193,000


                                                            
12
  Delivering U.S. assistance through Pakistan’s own budgetary, spending, and accounting systems as much as
possible will help the Government of Pakistan meet the fiscal targets required by the International Monetary Fund
and raise Pakistanis’ awareness of where U.S. funds are going and how they harmonize with resources from the
Government of Pakistan and other donors. On-budget assistance should also help reduce disruptions in
implementation by enabling federal and provincial governments to improve budget planning and cash-flow
management.

                                                                                                              28
                                                                     Number
                                                                                Value
                                 Type                                  of
                                                                                 ($)
                                                                     Awards
Tarbela hydropower plant rehabilitation and repair                      1       16,500,000

Irrigation Tube Well Efficiency Improvement Project                     1       18,500,000

Local democratic governance municipal services                          1      200,000,000

Distribution Companies Performance Improvement Program                  1       60,000,000

Health Services Academy (Ministry of Health)                            1        2,000,000

Direct Funding for Provincial Government Projects                       4     242,150,000

Southern Punjab Basic Education Program†                                1        6,250,000

Punjab education sector grant                                           1       48,000,000

Balochistan middle schools (budget offset)                              1       40,000,000

Southern Punjab Basic Education Program                                 1      147,900,000

Awards to Pakistani NGOs                                               54     269,132,952

Apex Consulting, monitoring of OFDA flood relief – Sindh†               1         149,480
Community Uplift Program, monitoring of OFDA flood relief –
                                                                        1         149,009
Balochistan†
Key Chain Films, production of videos on development activities†        1          50,000
KPMG Taseer Hadi & Co., accelerated capacity building of PaRRSA
                                                                        1         710,413
(modification)†
RSPN, Sindh Agriculture Recovery Project†                               1       15,000,000
Voice Tel Tech, monitoring of OFDA flood relief – Khyber
                                                                        1         147,085
Pakhtunkhwa†
Voice Tel Tech, monitoring of OFDA flood relief – Punjab†               1         147,085

RSPN, Sindh Agriculture Recovery Program†                               1       15,000,000

Associates in Development, Assessment and Strengthening Program†        1        8,892,375
Lahore University of Management Sciences, Assessment and
                                                                        1       15,537,792
Strengthening Program†
RSPN, Assessment and Strengthening Program†                             1       19,977,061
PPAF, emergency relief for flood-affected households in Sindh and
                                                                        1        5,000,000
Balochistan†
RSPN, emergency relief and early recovery for flood-affected areas
                                                                        1        4,999,434
across Pakistan†
CAMEOS Consultants, Balochistan Water Survey Project                    1         181,559
Associates in Development, South Waziristan Agency monitoring and
                                                                        1        3,434,388
evaluation contract
Independent organization, USAID/Office of Transition Initiatives
                                                                        1         315,987
monitoring and evaluation services


                                                                                             29
                                                                                Number
                                                                                                   Value
                                      Type                                        of
                                                                                                    ($)
                                                                                Awards
    Transparency International, Antifraud Hotline Program                          1                  3,000,000
    RSPN, emergency relief items to communities affected by floods in
                                                                                   1                  2,299,998
    Pakistan
    Aurat Foundation, Gender Equity Program                                        1               40,000,000

    PPAF, relief to flood-affected communities in Punjab and Sindh                 1                  2,699,543
    National Rural Support Program, Small Grants and Ambassador’s Fund
                                                                                   1               49,988,052
    Program
    Aga Khan University, Flood Response Program                                    1                  6,395,093
    Local CPA firms, monitoring and evaluation for small-scale infrastructure
                                                                                   1                  1,224,351
    projects in FATA and Khyber Pakhtunkhwa – Malakand (task order)
    Multiple implementing partners, audit and financial management services
                                                                                  15               15,000,000
    (blanket purchase agreement)
    Multiple implementing partners, USAID recruitment services (blanket
                                                                                   4                  4,000,000
    purchase agreement)
    Rafi Peer Theatre Workshop, Children’s Television Program                      1               20,000,000

    Habib-Rafique (Pvt.) Ltd./ CDM, Parliamentary Institute Building               1                  9,300,000

    Khushhali Bank, Bolton Market Business Revitalization Program                  1               13,000,000

    Pakistan Anticorruption Program                                                1                   400,000
    Multiple implementing partners, audit, financial review, and related
                                                                                   5                  2,500,000
    financial management services (basic ordering agreement)
    Strengthening capacity of the FATA Secretariat                                 1                   817,260

    KPMG Taseer Hadi, accelerated capacity building of PaRRSA                      1                   816,987

    Pakistan Broadcasting Corporation                                              1                  8,000,000

    Total                                                                         76         1,361,403,952

Source: USAID/Pakistan.
* For budget support, U.S. assistance funds are comingled with other budgetary resources available to the Pakistani
Government, and accounting for how the U.S. funds have been used is not possible. For project assistance, U.S.
funds are normally segregated in separate bank accounts, and the Pakistani Government is required to keep books
and records that show how assistance funds are spent.
†   Awards made to Pakistani institutions during the reporting period, October 1–December 31, 2010.


Prior to receiving funds, USAID’s Office of Financial Management performs preaward assessments of all
prospective partner organizations. The assessments examine organizational and management structure,
accounting, financial management systems, internal controls, technical capabilities, and quality assurance
capabilities, as well as the organizations’ policies, procedures, and practices for effective and efficient
management of USAID/Pakistan resources. To date, USAID has completed 35 preaward assessments,
including 8 this quarter on the following organizations:


                                                                                                                  30
1.   Tameer Bank Limited
2.   Earthquake Rehabilitation and Reconstruction Authority
3.   Pakistan Dairy Development Company
4.   Acumen Fund Pakistan
5.   Election Commission of Pakistan
6.   Kashf Bank
7.   Punjab Provincial Government—17 departments
8.   Sindh Provincial Government—15 departments

USAID reported that it had 30 preaward assessments under way for Pakistani organizations, including
government departments and project management units.




                                                                                                31
Staffing
The U.S. Mission in Pakistan—USAID and Embassy components 13 —is increasing staffing levels in
Islamabad and at regional offices in Peshawar, Lahore, and Karachi.

As shown in Table 7, USAID reported a total of 228 staff (53 U.S. direct-hires and 175 others) as of
December 31, 2010. Since the last quarterly report, the mission has increased its staff by 18 positions.
However, USAID/Pakistan’s fiscal year 2011 target is 296 staff and the mission remains understaffed by
68 positions. USAID, as the lead and largest manager of assistance funds among U.S. Government
agencies, will need to increase its project management, legal, financial management, and procurement
staff significantly. 14

                               Table 7. USAID Staffing in Pakistan as of December 31, 2010

                                                                                                         Difference from
               Category                           Islamabad        Peshawar   Lahore   Karachi   Total   September 30,
                                                                                                               2010
     U.S. direct hire                                      47          2        3         1        53          +3
     U.S. staff from other                                     1       0        0         0         1          -1
     departments and
     agencies*
     U.S. personal services                                17          4        0         0        21          +5
     contractors
     Third-country nationals                                   8       0        0         0         8          -1


     Foreign Service Nationals                             99         18        6         6       129         +10
     (Pakistani staff)

     Eligible family members                                   5       0        0         1         6          +2
     Long-term temporary-                                  10          0        0         0        10          0
     duty staff†
     Total Staff                                         187          24        9         8       228         +18
     Staff Target 2011                                                                            296
     Staff Shortfall                                                                               68

     * The staff member shown is detailed from the U.S. Department of Agriculture.
     † USAID/Pakistan reported that long-term temporary-duty staff (defined as being in Pakistan for a year) filling
     vacant positions counted toward the total number of USAID/Pakistan positions.

                                                            
13
   The U.S. Embassy’s Narcotics Affairs Section reported that it had 86 staff and contractors on board as of
December 31, 2010, including 4 U.S. direct hires. The Embassy’s Public Affairs Section reported that it had 21
direct hires on board as of that date.
14
     Pakistan Assistance Strategy Report, December 14, 2009.

                                                                                                                       32
Risks and Mitigation Strategies
U.S. Government agencies and oversight entities identified risks that could jeopardize the U.S.
Government’s assistance program in Pakistan and identified accompanying mitigation strategies. Since
the last quarterly report, four new challenges have emerged:

•   Reprogramming of funds for flood recovery. To meet the immediate needs of the flood victims, the
    United States pledged at the Pakistan Development Forum on November 14, 2010, to direct roughly
    $500 million of its FY 2009 and FY 2010 budgets toward flood recovery. As this funding is
    identified, previously planned projects are being postponed or eliminated. While the U.S. Embassy
    in Islamabad awaits decisions on reprogramming, some programs have been put on hold. Risks to
    such programs include a loss of momentum in planning and implementation, and potential damage to
    relationships that have been carefully established with key Pakistani stakeholders. To mitigate these
    risks, USAID/Pakistan has moved forward as expeditiously as possible with the programs that have
    received approval, maintaining contact with key counterparts to sustain important political
    relationships while programs remain on hold.

•   Vulnerability to natural disasters. Pakistan is prone to natural disasters such as earthquakes and
    flooding. Ongoing flooding and the resulting damage have delayed implementation of projects in
    flood-affected areas. USAID supports programs in water storage, including the surface water
    management program for Balochistan and Gomal Zam Dam, which provide some flood mitigation.

•   Adverse environmental impact. USAID/Pakistan conducts environmental assessments before disbursing
    funds for projects. These assessments sometimes raise concerns regarding the impact of
    development projects on the environment or communities—for example, an infrastructure project
    in South Waziristan linking a road from Tank to Wana to Makeen. To mitigate this risk, the office in
    FATA will address and take necessary steps to mitigate environmental concerns before building
    portions of the road.

•   Leadership turnover. Turnover is high in entities of the Government of Pakistan that deal with
    agriculture. Such turnover affects planning, coordination, and progress of program implementation.
    USAID will continue to work closely with all government counterparts, involving DOS colleagues as
    necessary. In addition, USAID/Pakistan’s Agriculture Office plans to include requirements in project
    implementation letters with the Government of Pakistan to ensure the continuity of key personnel.

In addition to the challenges described above, risks identified in previous quarterly reports on the civilian
assistance program remain:

•   Flood-related insecurity. Last quarter one significant risk to the effectiveness of the assistance program
    emerged from the floods that submerged one-fifth of the country: significant and sustained
    instability. Over 20 million Pakistanis were affected by the floods, and disillusionment among
    Pakistanis with the current civilian government’s recovery and reconstruction efforts could fuel
    instability and conflict.


                                                                                                           33
•      Terrorist threats in the United States. A successful terrorist attack originating in Pakistan but carried
       out on U.S. soil could damage the U.S.-Pakistan relationship. The heightened risk of such an attack
       was underscored by Administration officials in their testimony before the Senate Committee on
       Homeland Security and Governmental Affairs in September 2010. 15

•      Political risks. Any softening of support for civilian rule and unambiguous opposition to all terrorist
       groups operating in Pakistan could endanger the assistance program and the relationship between
       the United States and Pakistan.

•      Resistance to change. Entrenched interests may resist policy reforms needed to transform the
       economy. According to USAID, if fundamental reforms are not implemented, assistance from the
       United States and other donors will have stabilized the economy only temporarily.

•      Security risks. Security concerns continue to reduce the ability of U.S. Government personnel to
       conduct direct monitoring and evaluation in conflict-affected areas, particularly Peshawar, FATA, and
       Khyber Pakhtunkhwa.

•      Direct budget support. U.S. assistance funds to the Government of Pakistan in the form of budget
       support are comingled with other resources available to Pakistan. Therefore, financial management,
       accountability, and reporting challenges continue.

•      Limited institutional capacity. Limited institutional capacity—especially in the FATA, Khyber
       Pakhtunkhwa, and Balochistan—creates a risk that resources might be lost through inefficiency,
       theft, or general lack of capacity to handle large amounts of funding.

As described above, security is an ongoing challenge that limits the ability of civilians to provide
assistance in certain vulnerable areas, as well as USAID’s ability to monitor and evaluate projects.
USAID is addressing this concern by expanding its regional offices in Peshawar and Lahore and its use of
Pakistani firms to conduct site visits.

To maximize aid effectiveness and sustainability, USAID/Pakistan is committed to providing assistance
through Pakistani institutions. This policy is intended to increase the number of USAID partnerships,
although many of these new partnerships will be with institutions that have limited capacity to plan and
implement projects because of limited staff or a lack of experience with the financial management
requirements. To address this concern, USAID/Pakistan is supporting technical advisors and units within
government ministries receiving USAID funding to help manage specific projects and mentor ministry
staff. Moreover, USAID is funding certified public accounting firms to conduct preaward assessments to
help ensure that potential recipients of USAID assistance meet U.S. transparency and accountability
standards. These assessments also determine the capacity needs of potential partners so that USAID
can work with them to build those capacities. In addition, USAID increasingly relies on fixed-amount
reimbursement as a mechanism to disburse funding to Pakistani institutions. This mechanism requires
progress to be achieved before funding is released to the implementing partner.


                                                            
15
     “Nine Years After 9/11: Confronting the Terrorist Threat to the Homeland,” September 22, 2010.

                                                                                                             34
In addition to these USAID strategies, USAID OIG has taken the following steps to ensure that U.S.
Government funds are protected against waste and theft:

•      Establishing field offices in Pakistan for the USAID and DOS OIGs. As of December 31, 2010, USAID
       OIG had 11 permanent staff in Islamabad (8 U.S. direct hires and 3 Foreign Service National
       employees), supplemented by staff on temporary duty. In October 2010, DOS OIG established a
       field office in Islamabad; the office director is assigned to Pakistan, and two evaluators are scheduled
       to arrive in February 2011.

•      Conducting risk assessments of awards to U.S.-based entities working in Pakistan. In fiscal year 2010,
       USAID OIG conducted risk assessments of 18 awards to prioritize the financial reviews to be
       performed of U.S. entities operating in Pakistan. Of the 18 awards, auditors considered 5 to be high
       risk and suggested that USAID/Pakistan conduct financial reviews of those implementing the high-
       risk awards. As of December 31, 2010, two financial reviews had been completed, two were
       planned, and one had been canceled (one award was terminated early).

•      Expanding the use of independent Pakistani public accounting firms to conduct financial audits of funds
       provided to Pakistani NGOs. As of December 31, 2010, USAID OIG had a roster of 23 eligible audit
       firms in Pakistan to call on. Since the passage of the Enhanced Partnership with Pakistan Act on
       October 15, 2009, USAID OIG has added 11 audit firms to its list of eligible audit firms in Pakistan.

•      Providing training to Pakistani public accounting firms and to the Office of the Auditor General. The training
       covers standards and requirements applicable to financial audits of U.S. Government funds. In
       October 2010, USAID OIG provided training to 21 public accounting firms (42 participants) and 16
       nongovernmental organizations (31 participants)—totaling 73 participants. Earlier, in April 2010,
       USAID OIG provided training to 21 auditors from the Office of the Auditor General.

•      Providing training to USAID’s contracting and agreement officers’ technical representatives and financial
       analysts. The training covers the standards and requirements applicable to financial audits of U.S.
       Government funds. As of December 31, 2010, USAID OIG had provided four training seminars to
       52 staff members working at USAID/Pakistan. USAID OIG also trained 26 staff from ten provincial
       government ministries.

•      Helping the Office of the Auditor General conduct financial audits. USAID OIG will help the office
       conduct financial audits of funds provided to Pakistani Government entities by reviewing the
       statement of work between the mission and the Office of the Auditor General for each audit
       conducted, attending entrance and exit conferences, reviewing the Auditor General’s audit program,
       and approving the draft and final reports to ensure that the audits were performed in accordance
       with government auditing standards.

•      Working with Pakistan’s National Accountability Bureau (NAB). 16 USAID OIG established a working
       relationship with NAB in early 2010. On December 8, 2010, the Director General of Operations

                                                            
16
  NAB is the primary law enforcement agency in Pakistan responsible for investigating white-collar crime and
public corruption, and it is Pakistan’s only law enforcement agency authorized to conduct investigations in FATA.

                                                                                                                  35
    and the Chairman of the Pakistan National Accountability Bureau met with the USAID Inspector
    General. The meeting affirmed cooperation on ongoing investigations and continued coordination
    between the two organizations.

•   Collaborating with USAID/Pakistan to establish a fraud hotline in Pakistan. As previously reported, in
    September 2010, USAID/Pakistan signed a 5-year, $3 million cooperative agreement with
    Transparency International-Pakistan to implement a fraud hotline and education program. Work
    continues on the development and implementation of the hotline and education programs, and the
    hotline is expected to begin operating in February 2011.

•   USAID OIG hotline. During the reporting period, USAID OIG received five hotline complaints related
    to USAID’s activities in Pakistan. One did not have investigatory merit, two calls prompted
    preliminary inquiries, and the remaining two led to investigations that are under way.

•   Providing fraud awareness briefings and expanding investigatory coverage. During the reporting period,
    six fraud awareness briefings were given by OIG special agents in Pakistan attended by 145 USAID,
    U.S. Consulate, and contractor personnel.

•   Coordinating audits and investigations with other U.S. agencies. USAID OIG works with other OIGs, the
    Government Accountability Office (GAO), and law enforcement agencies, including the Federal
    Bureau of Investigation’s International Corruption Unit, the National Procurement Task Force, and
    the U.S. Embassy’s Legal Attaché Office.




                                                                                                       36
Oversight Status
USAID Office of Inspector General

USAID OIG oversees foreign assistance programs administered by USAID, the United States African
Development Foundation, the Inter-American Foundation, and the Millennium Challenge Corporation.
USAID OIG has strengthened its focus on Pakistan since USAID reopened its Pakistan mission in 2002.
In recent years, OIG has covered a wide array of USAID programs in Pakistan, for relief and
stabilization, reconstruction, sustainable development, education, and health care. USAID OIG’s
oversight activities include performance audits, financial audits, and investigations.

Work Completed Since October 1, 2010

From October 1 through December 31, 2010, USAID OIG completed two performance audits and two
financial audits:

•   Audit of USAID/Pakistan’s Livelihood Development Program for the Lower Region of
    the Federally Administered Tribal Areas (Audit Report No. 5-391-11-001-P,
    December 10, 2010). This audit determined that USAID/Pakistan’s Livelihood Development
    Program had made little progress in achieving its main goal of social and economic stabilization to
    counter the growing influence of extremist and terrorist groups in lower FATA. The main cause for
    the program achieving so little was the hostile environment in FATA. The U.S.-based implementing
    partner experienced kidnappings, harassment, and the tragic assassination of its chief of party in
    November 2008; consequently, program activities stopped for 6 months until security measures
    were improved and a new chief of party took office. During this time, the implementing partner
    relocated its country office from Peshawar to Islamabad.

    Although the hostile situation led to the program’s lack of results, a contributing factor was the
    mission’s inadequate monitoring and oversight to achieve program goals. With inadequate
    oversight, the implementer incurred costs of approximately $767,841 that auditors questioned
    ($432,482 in ineligible costs and $335,359 in unsupported costs). USAID/Pakistan needs to
    determine the allowability of these costs and recover them as appropriate. In addition, the
    program’s ability to achieve results was hindered by a shift in U.S. Government strategy toward
    partnering with Pakistani implementers and by the mission’s request that its implementing partners
    provide humanitarian assistance. The report contains seven recommendations to help the mission
    improve various aspects of the program.

•   Audit of USAID/Pakistan’s Livelihood Development Program for the Upper Region of
    the Federally Administered Tribal Areas (Audit Report No. 5-391-11-002-P,
    December 10, 2010). This audit determined that USAID/Pakistan’s Livelihood Development
    Program had not achieved its main goal of social and economic stabilization to counter the growing
    influence of extremist and terrorist groups in upper FATA. The mission had no baseline data to
    determine progress toward countering the influence of these groups. In addition, the program had
    carried out only 53 percent of planned activities, and program outcomes were weak. Security
    problems and allegations of wrongdoing overshadowed and impeded program progress. Other
    factors directly affecting the program included a change in focus toward humanitarian and disaster
    assistance and a shift in U.S. Government strategy toward including more Pakistani institutions in

                                                                                                    37
    program implementation. The report contains five recommendations to help the mission improve
    various aspects of the program, which continues despite USAID/Pakistan’s termination of the U.S.-
    based implementing partner’s agreement after an ongoing OIG investigation revealed fraud.

•   Financial Audit of Khushhali Bank Limited Under the Developing Non-Bankable
    Territories for Financial Services Program (Close-Out Audit), for the Period January 1,
    2009, to September 30, 2009 (Audit Report No. G-391-11-001-R, December 30, 2010).
    The audit covered incurred costs of $450,607. The audit concluded that the fund accountability
    statement fairly presents, in all material respects, project revenues and costs incurred under the
    agreement for the period audited. The audit did not identify any significant deficiencies in internal
    control. However, the audit identified one material instance of noncompliance: not submitting
    project implementation plans 30 days before the start of the year, as required by the agreement.
    Because the material instance of noncompliance did not affect the report on the fund accountability
    statement, the audit made no recommendations.

•   Financial Audit of the Costs Incurred by Research Triangle Institute Under the
    Education Sector Reform Assistance Program’s School Enhancement Program
    Component, for the Period December 4, 2002, to September 30, 2007 (Audit Report
    No. G-391-11-001-D, November 8, 2010). The audit covered incurred costs of $14,432,228.
    The objective of the audit was to determine whether the costs charged to the School Enhancement
    Program Component were allowable, allocable, and reasonable in accordance with the Federal
    Acquisition Regulation, USAID acquisition regulations, contract terms, and other regulations. The
    audit concluded that the incurred and billed costs under the program were adequately supported by
    source documents and represented allowable costs under the contract. The audit report did not
    make any recommendations.

Work Under Way

As of December 31, 2010, USAID OIG had three performance audits and six financial audits in process:

•   Audit of USAID/Pakistan's Flood Relief Efforts as Administered by Local
    Nongovernmental Organizations. As part of the relief efforts in response to the recent floods
    in Pakistan that affected over 20 million people in 74 districts, USAID/Pakistan obligated $5 million
    to two local NGOs—Pakistan Poverty Alleviation Fund and Rural Support Programmes Network.
    The NGOs were to procure and distribute $4.4 million in food and medical commodities to 82,261
    households. The audit is determining whether USAID/Pakistan’s flood relief efforts—delivering food
    hampers, hygiene kits, and medical supplies through the Pakistani NGOs—met the immediate needs
    of the flood victims.

•   Audit of USAID/Pakistan’s Management of Preaward Surveys for Host-Government
    and Local Organizations in Pakistan. A key aspect of USAID/Pakistan’s management strategy is
    to conduct preaward surveys of Pakistani federal and provincial governmental agencies and local
    organizations that have been selected to receive USAID funds. The surveys are to determine
    whether the assessed entity has the necessary organization, experience, accounting and operational
    controls, and technical skills to effectively manage and account for these funds. As of September 30,

                                                                                                      38
    2010, USAID/Pakistan had completed 60 preaward surveys. The audit is determining (1) whether
    USAID/Pakistan’s preaward surveys provide a reasonable basis for identifying vulnerabilities that
    could result in waste or misuse of U.S. Government resources and (2) whether USAID/Pakistan
    effectively addressed the deficiencies noted for those identified as high-risk recipients.

•   Audit of USAID/Pakistan’s Road Rehabilitation and Reconstruction Activities Under
    the Quick Impact Projects in South Waziristan. This audit is determining whether the
    specified activities are achieving the mission’s goal of rebuilding selected roads.

•   Financial Audit of USAID Funds Managed by the Ministry of Finance, Government of
    Pakistan, for the Education, Health, and Clean Drinking Water Budget Lines, for the
    Period June 15, 2007, to June 30, 2008, and for the Government of Pakistan Rural
    Landless Compensation Policy Budget Line, for the Period June 15, 2007, to
    December 31, 2009.

•   Financial Audit of USAID Funds Managed by the Ministry of Economics Affairs and
    Statistics (Economic Affairs Division) Under the Cash Transfer Grant Agreement for
    Internally Displaced Persons, for the Period July 1, 2009, to June 30, 2010.

•   Financial Audit of USAID Funds Managed by the Higher Education Commission Under
    the Merit and Needs-Based Scholarship Program, for the Period July 2, 2004, to June
    30, 2010.

•   Financial Audit of USAID Funds Managed by the Ministry of Economics Affairs and
    Statistics (Economics Affairs Division) Under the Cash Transfer Grant Agreement for
    the Benazir Income Support Program, for the Period July 1, 2009, to June 30, 2010.

•   Financial Audit of the USAID/Pakistan Trust Fund for Operating Expenses, for the
    Fiscal Years Ended September 30, 2007, 2008, and 2009.

•   Financial Audit of USAID Resources Managed by Children’s Global Network Pakistan
    Limited Under the Interactive Teaching and Learning Program in Pakistan (Close-Out
    Audit) and Subaward Through American Institutes for Research, for the Period July 1,
    2008, to February 26, 2010.

In addition to these audit assignments, USAID OIG closed 2 investigative cases during the reporting
period and has an additional 13 open cases. As discussed below, one ongoing case relating to a USAID
implementing partner for livelihood development programs in FATA had significant developments during
the period October 1-December 31, 2010:

•   USAID Suspends Academy for Educational Development (AED), an Implementing
    Partner in Pakistan. On December 8, 2010, USAID suspended AED from receiving new U.S.
    Government awards pending completion of an ongoing investigation by USAID OIG. Initial findings
    by USAID OIG revealed evidence of serious corporate misconduct, mismanagement, and a lack of
    internal controls, and raised serious concerns of corporate integrity. The investigation further
    revealed fraud stemming from false statements and claims, failure to perform in accordance with the
    terms of the agreement, and violation of statutory or regulatory provisions contained in the

                                                                                                    39
    agreement. In response to substantiated evidence of misconduct, USAID suspended AED and is
    conducting a review of every USAID program worldwide associated with AED. The review will
    determine the best steps forward for protecting U.S. taxpayer funds.

•   AED Senior Executives Depart. The AED board of directors accepted the organization’s
    responsibility for the mismanagement of the USAID-funded livelihood development project in
    Pakistan. The board stated that, under the circumstances, the president and chief executive officer
    agreed to retire. Four other senior executives, including the chief operating officer, the senior vice
    president and director for internal audit, the senior vice president and director of the Leadership
    and Institutional Development Group, and the vice president and director of the Center for
    Enterprise and Capacity Development, also were required to depart.

Work Planned for the Remainder of FY 2011

For the remainder of FY 2011, USAID OIG expects to conduct four performance audits and one
financial audit:

•   Audit of USAID/Pakistan’s Pre-Service Teacher Education Program (Pre-STEP). This
    audit will determine whether the program is helping teachers improve their professional
    qualifications.

•   Audit of USAID/Pakistan’s Pakistan Firms Project. This audit will determine whether the
    project is strengthening the business sector and improving firms’ productivity and quality.

•   Audit of USAID/Pakistan’s Energy Efficiency and Capacity Program. This audit will
    determine whether the program is promoting energy efficiency and conservation and building the
    capacity of public sector organizations to better address the needs of the energy sector.

•   Audit of USAID/Pakistan’s Community Rehabilitation Infrastructure Support Program.
    This audit will determine whether the program is constructing and renovating community
    infrastructure that will improve delivery of basic services such as education, health care, water
    supply, sanitation, electricity, and transportation and promote economic growth in rural areas.

•   Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
    Statistics (Economic Affairs Division) Under the Cash Transfer Grant Agreement for
    University and Technical Education in FATA Through the Pakistan Higher Education
    Commission, for the Period September 30, 2009, to June 30, 2010.


Department of State Office of Inspector General

Work Under Way
As of December 31, 2010, DOS OIG had one performance evaluation under way:

•   Review of Pakistan Internally Displaced Persons (Performance Evaluation). The review
    is determining (1) whether U.S. Government and international organizations have effectively met the

                                                                                                       40
    protection, food, and other assistance needs of Pakistan’s IDPs, (2) whether the U.S. Government
    has a coordinated and effectively managed program to protect and assist these persons, and (3)
    whether the program has accounted for the flow and use of funds provided to assist Pakistani IDPs.
    This evaluation is in the final report stage.

Work Planned for the Remainder of FY 2011

The DOS OIG has five evaluations planned for FY 2011:

•   Review of Internal Management Controls of Funds Provided to Pakistan (Performance
    Evaluation). The review will determine whether specific internal controls have been properly
    designed and put in place for the Pakistan program funds, including procedures for planning,
    organizing, directing, and controlling program operations. The review also will assess the system for
    measuring, reporting on, and monitoring program performance.

•   Review of U.S. Mission Pakistan Local Security Program (Performance Evaluation). The
    review will examine and summarize the requirements and provisions of the U.S. Mission in Pakistan’s
    local security force contracts, including the objectives of the contracts and task orders, indicators
    established to measure performance, and internal controls over the contractors’ performance and
    contract costs.

•   Review of Emergency Action Plan for Embassies Baghdad, Kabul, and Islamabad
    (Program Evaluation). The review will assess the status and effectiveness of emergency action
    plans for Embassies Baghdad, Kabul, and Islamabad to determine their reasonableness and their level
    of coordination with the military commanders in-country.

•   Review of Embassy Islamabad Antiterrorism Assistance Program in Pakistan
    (Performance Evaluation). This review will examine the requirements and provisions of the
    Antiterrorism Assistance Program and associated contracts for Embassy Islamabad. Specifically, the
    review will (1) determine the degree to which antiterrorism assistance training programs have
    achieved their intended outcomes, (2) assess whether contracts for antiterrorism assistance training
    and equipment are effectively managed, and (3) validate controls over foreign government
    equipment provided in support of the training programs.

•   Review of Operations and Maintenance Contract for Embassy Islamabad (Contract
    Evaluation). This review will assess the requirements and provisions of the operations and
    maintenance contract for Embassy Islamabad. The objectives of this evaluation are to determine: (1)
    the requirements and provisions of the contract and task orders; (2) the amount of funding DOS has
    obligated and expended for operations and maintenance on this contract; (3) the effectiveness of
    contractor performance in providing operations and maintenance services to the Embassy and other
    facilities; (4) the controls for inventorying, recording, and safeguarding U.S. Government-furnished
    equipment and property in Pakistan—whether the equipment has been properly accounted for, and
    the challenges to maintaining accountability; (5) how well DOS administers and manages the
    contract and task orders to provide oversight of the contractor’s performance in Pakistan; and (6)
    how DOS ensures that costs are properly allocated and supported.

DOS OIG established its field office at the U.S. Embassy in Islamabad in October 2010. The office
director has been assigned to Pakistan, and two evaluators are scheduled to arrive in February 2011. In
addition to its evaluations, DOS OIG has two investigative cases related to Pakistan. DOS OIG has six

                                                                                                      41
investigators assigned to its Middle East Investigative Branch. These investigators, in addition to handling
regional cases, pursue cases related to Pakistan.


Department of Defense Office of Inspector General

The Department of Defense OIG has no ongoing or planned projects related to the civilian assistance
program in Pakistan for FY 2011.

Government Accountability Office

GAO is an independent, nonpartisan agency that oversees federal government spending. GAO’s mission
is to help improve the performance and ensure the accountability of the federal government for the
benefit of the American people. GAO performs oversight at the request of Congress. Additionally,
GAO may be required to research issues mandated by public laws or may undertake work prompted by
broad-based congressional interest under the authority of the Comptroller General. GAO supports
congressional oversight through many avenues, such as auditing agency operations, investigating
allegations of illegal activities, reporting on the efficiency and effectiveness of government programs and
policies, analyzing policy, outlining options for congressional consideration, and issuing legal decisions
and opinions. GAO consults with key members of the accountability community, including the
inspectors general. For example, GAO participates in the Afghanistan-Pakistan Subgroup, which is
chaired by USAID OIG and focuses on oversight of U.S. programs in those two countries.
 
Work Completed Since October 1, 2010

GAO did not publish any work on Pakistan during this period, but did offer and provide briefings to
congressional committees on the Pakistan Assistance Strategy Report engagement listed below.

Work Under Way

From October 1 through December 31, 2010, the GAO had five ongoing engagements concerning Pakistan:

•   Accountability for U.S. Defense Equipment Transferred to Pakistan. This engagement is
    assessing the extent to which DOD has (1) ensured accountability for the receipt, storage, and
    transfer to Pakistan of U.S.-provided equipment at its Islamabad warehouse; (2) followed up on
    reported weaknesses in accountability for night vision devices in Pakistan's custody; and (3)
    addressed new accountability requirements established in the 2010 National Defense Authorization
    Act for sensitive equipment provided to Pakistan. GAO expects to issue a report in February 2011.

•   U.S. Efforts to Enhance Pakistan’s Counterinsurgency Forces. This engagement is assessing
    (1) the status of U.S. efforts to train, equip, and improve infrastructure for Pakistani security forces
    to enhance counterinsurgency and counterterrorism along the western frontier bordering
    Afghanistan using the Pakistan Counterinsurgency Fund and the Pakistan Counterinsurgency
    Capabilities Fund, and (2) the extent to which DOD and DOS are implementing and following
    human rights vetting policies and procedures to ensure compliance with congressional human rights
    funding restrictions on the two counterinsurgency fund appropriations. GAO expects to complete
    this engagement in June 2011.

                                                                                                         42
•   Pakistan Assistance Strategy Report. This engagement is mandated by section 302(b)(1) of the
    Enhanced Partnership with Pakistan Act of 2009 (Public Law 111-73). It will assess the DOS 2009
    Pakistan Assistance Strategy Report describing U.S. policy and strategy for U.S. democratic,
    economic, and development assistance authorized by Title I of the act ($1.5 billion for 5 years, $7.5
    billion total). GAO is tasked with commenting on the strategy, making recommendations to
    improve the efficiency and effectiveness of U.S. efforts, describing Pakistan’s expenditures under the
    Foreign Military Financing Program, and assessing the impact of U.S. assistance on the security and
    stability of Pakistan. GAO plans to issue a report in February 2011.

•   Pakistan’s Anti-Terror Efforts. The Enhanced Partnership with Pakistan Act of 2009 prohibits
    military assistance and arms transfers to Pakistan in FY 2011–14 unless the President certifies that
    Pakistan is making significant progress in combating terrorist groups—including ceasing support for
    such groups, preventing them from operating in Pakistan, and strengthening counterterrorism and
    anti-money-laundering laws—and that its security forces are not subverting the country's political or
    judicial processes. The act requires GAO to independently assess this certification, which GAO will
    do by assessing the extent to which (1) U.S. officials assessed and disclosed the reliability of evidence
    used to support the certification; (2) conclusions in the certification are consistent with the views of
    experts, academia, and other U.S. agencies, or differences are explained; and (3) there are gaps in
    the issues that the U.S. Government considered in making the certification. GAO expects to
    complete the assessment 120 days after the President’s certification is sent to Congress.

•   Pakistan Nuclear Networks. The Enhanced Partnership with Pakistan Act of 2009 prohibits
    military assistance and arms transfers to Pakistan in FY 2011–14 unless the President certifies that
    Pakistan is continuing to cooperate with the United States in efforts to dismantle nuclear supplier
    networks relating to the acquisition of nuclear weapons-related materials—for example, by
    providing relevant information from or direct access to Pakistani nationals associated with such
    networks. The act requires GAO to independently assess this certification. This engagement will
    assess the extent to which (1) U.S. officials assessed and disclosed the reliability and accuracy of
    documentary evidence used to support the certification; (2) conclusions in the certification are
    consistent with the views of experts in private sector research organizations, academia, and other
    U.S. agencies, or are explained where they differ; and (3) there are gaps in the issues that the U.S.
    Government considered in making its certification. GAO expects to complete this assessment 120
    days after the President’s certification is sent to Congress.

Work Planned for the Remainder of FY 2011

In response to congressional interest, GAO may begin additional work on Pakistan and relate its findings
in subsequent reports.




                                                                                                          43
Completed Oversight Reports, as of December 31, 2010

Table 8 lists oversight reports completed since the passage of the Enhanced Partnership with Pakistan
Act, October 15, 2009.

               Table 8. Oversight Reports Completed as of December 31, 2010

Agency     Report Number       Report Date                              Report Title
                                                 Financial Audit of Khushhali Bank Limited Under the
                                   12/30/10      Developing Non-Bankable Territories for Financial Services
USAID     G-391-11-001-R
                                                 Program (Close-Out Audit), for the Period January 1, 2009,
                                                 to September 30, 2009
                                                 Audit of USAID/Pakistan’s Livelihood Development Program
                                   12/10/10
USAID     5-391-11-002-P                         for the Upper Region of the Federally Administered Tribal
                                                 Areas
                                                 Audit of USAID/Pakistan’s Livelihood Development Program
                                   12/10/10
USAID     5-391-11-001-P                         for the Lower Region of the Federally Administered Tribal
                                                 Areas
                                                 Financial Audit of the Costs Incurred by Research Triangle
                                   11/8/10       Institute Under the Education Sector Reform Assistance
USAID     G-391-11-001-D
                                                 Program’s School Enhancement Program Component, for
                                                 the Period December 4, 2002, to September 30, 2007
                                   8/31/10       Audit of USAID/Pakistan’s Family Advancement for Life and
USAID     5-391-10-012-P
                                                 Health Program

                                                 Financial Audit of the Pakistan Competitiveness Support
                                    8/4/10       Fund, USAID/Pakistan Grant Agreement No. 391-G-00-06-
USAID     G-391-10-001-R
                                                 01073-00, Managed by the Competitiveness Support Fund,
                                                 for the Period February 3, 2006, to June 30, 2009
                                                 Audit of USAID/Pakistan’s Primary Healthcare Revitalization,
                                   6/28/10
USAID     5-391-10-010-P                         Integration and Decentralization in Earthquake-Affected
                                                 Areas Project

                                   6/28/10       Review of USAID’s Internally Displaced Persons Programs in
USAID     5-391-10-001-S
                                                 Pakistan

                                     6/10
DOS        ISP-I-10-64                           Inspection of Embassy Islamabad, Pakistan

                                                 Financial Audit of USAID Funds Managed by Forman
                                   5/18/10
USAID     5-391-10-033-R                         Christian College, Lahore, for the Period July 1, 2007, to
                                                 June 30, 2009

                                   4/30/10       Financial Audit of USAID Funds Managed by Khushhali Bank
USAID     5-391-10-029-R
                                                 for the Year Ended December 31, 2008

                                                 Combating Terrorism: Planning and Documentation of U.S.
                                     4/10
GAO        GAO-10-289                            Development Assistance in Pakistan's Federally
                                                 Administered Tribal Areas Need to Be Improved




                                                                                                              44
Agency   Report Number    Report Date                         Report Title
                                        Closeout Financial Audit of USAID Funds Managed by
                             3/24/10
USAID    5-391-10-026-R                 Greenstar Social Marketing Pakistan (Guarantee) Limited,
                                        for the Period July 1 to December 31, 2007
                                        The Bureau of International Narcotics and Law Enforcement
                              3/10
DOS      MERO-A-10-03                   Affairs Air Wing Program in Afghanistan and Pakistan,
                                        Performance Audit
                                        Closeout Financial Audit of USAID Funds Managed by Aga
                             2/11/10
USAID    5-391-10-020-R                 Khan University—Examination Board, for the Year Ended
                                        December 31, 2007
                             1/28/10    Audit of USAID/Pakistan’s Capacity Building for the
USAID    5-391-10-005-P
                                        Federally Administered Tribal Areas Development Program
                                        Financial Audit of USAID Funds Managed by Children’s
                             12/22/09
USAID    5-391-10-012-R                 Global Network Pakistan Limited, for the Year Ended
                                        June 30, 2008
                                        Status of the Bureau of International Narcotics and Law
                              12/09
DOS      MERO-A-10-02                   Enforcement Affairs Counternarcotics Programs in
                                        Afghanistan, Performance Audit
                              11/09     Effectiveness of Counter Narcotics Programs in Pakistan,
DOS      MERO-A-10-01
                                        Performance Audit




                                                                                                   45
                                                                                      Appendix




Appendix—–Abbreviations
AED        Academy for Educational Development

DEA        Drug Enforcement Administration

DOC        Department of Commerce

DOD        Department of Defense

DOS        Department of State

Ed-LINKS   Links to Learning—Education Support to Pakistan

FATA       Federally Administered Tribal Areas

FBI        Federal Bureau of Investigation

FY         fiscal year

GAO        Government Accountability Office

GENCO      Power Generation Company

IDPs       internally displaced persons

IOM        International Organization for Migration

KNCV       Royal Netherlands Tuberculosis Association (Koninklijk Nederlandsche Centrale
           Vereeniging)

NAB        National Accountability Bureau

NAS        Narcotics Affairs Section (U.S. Embassy Islamabad)

NATO       North Atlantic Treaty Organization

NGO        nongovernmental organization

OFDA       Office of Foreign Disaster Assistance

OIG        Office of Inspector General

PaRRSA     Provincial Reconstruction, Rehabilitation and Settlement Authority

PAS        Public Affairs Section (U.S. Embassy Islamabad)



                                                                                           46
                                                               Appendix


PPAF       Pakistan Poverty Alleviation Fund

Pre-STEP   Pre-Service Teacher Education Program

RSO        Regional Security Office (U.S. Embassy Islamabad)

RSPN       Rural Support Programmes Network

U.N.       United Nations

UNFPA      United Nations Population Fund

UNICEF     United Nations Children’s Fund

USAID      U.S. Agency for International Development

USDA       U.S. Department of Agriculture

USG        U.S. Government

USIP       U.S. Institute of Peace

USTDA      U.S. Trade and Development Agency

WAPDA      Water and Power Development Authority

WHO        World Health Organization




                                                                    47
